No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
RILEY BRIONES, JR.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
NOEL J. FRANCISCO
Solicitor General
Counsel of Record
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
FREDERICK LIU
Assistants to the Solicitor
General
FRANCESCO VALENTINI
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether Miller v. Alabama, which “h[e]ld that the
Eighth Amendment forbids a sentencing scheme that
mandates life in prison without possibility of parole for
juvenile offenders,” 567 U.S. 460, 479 (2012), entitles respondent to invalidation of a discretionary life-withoutparole sentence.

(I)

RELATED PROCEEDINGS

United States District Court (D. Ariz.):
Briones v. United States, No. 99-cv-2094 (Mar. 31,
2003)
Briones v. United States, No. 13-cv-1240 (Sept. 26,
2013)
Briones v. United States, No. 13-cv-2445 (July 21,
2014)
United States v. Briones, No. 96-cr-464 (Mar. 30,
2016)
United States Court of Appeals (9th Cir.):
United States v. Briones, No. 97-10371 (Nov. 30,
1998)
United States v. Briones, No. 03-16300 (July 24,
2009)
Briones v. United States, No. 13-71056 (Nov. 26,
2013)
United States v. Briones, No. 16-10150 (July 9, 2019)
Supreme Court of the United States:
Briones v. United States, No. 09-1044 (Mar. 29, 2010)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Constitutional provision involved................................................ 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 7
Conclusion ..................................................................................... 9
Appendix A — Court of appeals en banc opinion
(July 9, 2019) ................................................ 1a
Appendix B — Court of appeals panel opinion
(May 16, 2018) ............................................ 30a
Appendix C — Reporter’s transcript of proceedings
(Mar. 29, 2016) ........................................... 64a
TABLE OF AUTHORITIES

Cases:
Malvo v. Mathena, 893 F.3d 265 (4th Cir. 2018),
cert. granted, 139 S. Ct. 1317 (2019) ................................... 8
Miller v. Alabama, 567 U.S. 460 (2012) .................... 2, 4, 5, 7
Montgomery v. Louisiana, 136 S. Ct. 718 (2016)............. 6, 8
Constitution and statutes:
U.S. Const. Amend. VIII ........................................................ 2
18 U.S.C. 2 (1994) ................................................................ 3, 4
18 U.S.C. 81 (1994)................................................................... 3
18 U.S.C. 113(a)(3) (1994) ....................................................... 3
18 U.S.C. 371 (1994)................................................................. 3
18 U.S.C. 1111 (1994)............................................................... 3
18 U.S.C. 1153 (1994)............................................................... 3
18 U.S.C. 1512(b)(3) (1994) ..................................................... 4
(III)

IV
Statutes—Continued:

Page

18 U.S.C. 2111 (1994)............................................................... 3
26 U.S.C. 5681(d) (1994) .......................................................... 3
26 U.S.C. 5841 (1994)............................................................... 3
26 U.S.C. 5871 (1994)............................................................... 3
28 U.S.C. 2255 ...................................................................... 2, 4

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
RILEY BRIONES, JR.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States,
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the en banc court of appeals (App., infra, 1a-29a) is reported at 929 F.3d 1057. The opinion of
a panel of the court of appeals (App., infra, 30a-63a) is
reported at 890 F.3d 811.
JURISDICTION

The judgment of the court of appeals was entered on
July 9, 2019. On September 26, 2019, Justice Gorsuch
extended the time within which to file a petition for a
writ of certiorari to and including November 6, 2019. On
October 25, 2019, Justice Gorsuch further extended the

(1)

2
time to and including December 6, 2019. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISION INVOLVED

The Eighth Amendment to the Constitution provides: “Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.” U.S. Const. Amend. VIII.
STATEMENT

Following a jury trial in the United States District
Court for the District of Arizona, respondent was convicted on one count of first-degree felony murder,
among other charges. C.A. E.R. 136. The district court
sentenced him to life imprisonment, to be followed by
five years of supervised release. Ibid. The court of appeals affirmed. 165 F.3d 918, 1998 WL 863026 (Tbl.).
The district court later denied respondent’s motion under 28 U.S.C. 2255 to vacate his sentence, but granted a
certificate of appealability. D. Ct. Doc. 281 (Mar. 31,
2003); D. Ct. Doc. 287 (July 2, 2003). The court of appeals affirmed the denial of respondent’s Section 2255
motion. 03-16300 C.A. Doc. 99-1 (Mar. 12, 2008). In
2013, respondent obtained leave from the court of appeals to file a second Section 2255 motion to challenge
his sentence in light of Miller v. Alabama, 567 U.S. 460
(2012). 13-71056 C.A. Doc. 13-1 (Nov. 26, 2013). The
district court granted the motion and resentenced respondent to life imprisonment, to be followed by five
years of supervised release. D. Ct. Doc. 331, at 2 (July
21, 2014); App., infra, 66a. The en banc court of appeals
vacated that sentence and remanded for resentencing.
App., infra, 1a-29a.
1. Respondent was a co-founder of a gang called the
Eastside Crips Rolling 30’s. App., infra, 2a. In 1994—
when respondent was “only twenty-three days shy of his

3
eighteenth birthday,” id. at 27a (Bennett, J., dissenting)—
he and other members of his gang decided to rob a Subway restaurant on the Salt River Indian Reservation in
Arizona, id. at 2a-3a (majority opinion). Respondent
drove the other gang members, including one armed
with a gun, to the restaurant. Id. at 3a. While respondent remained in the car, “the others went inside and ordered food from the lone employee.” Ibid. “As the food
was being prepared, the only armed member of the cohort left the restaurant, spoke to [respondent], then
reentered the store and shot [the employee] as he stood
at the front counter, killing him.” Ibid. “The gang
members grabbed their food and a bag of money” and
fled in respondent’s car. Ibid.
After committing a series of other violent, gangrelated offenses—including the repeated firebombing
of a house with a young child inside and the assault of a
fellow gang member to prevent him from speaking to
police about the Subway murder—respondent was arrested. See App., infra, 3a & n.1; id. at 18a-19a (Bennett, J., dissenting). A federal grand jury in the District
of Arizona returned an indictment charging respondent
with one count of first-degree felony murder, in violation of 18 U.S.C. 1111, 1153, 2111, and 2 (1994); two
counts of conspiracy to commit arson, in violation of
18 U.S.C. 81, 371, 1153, and 2 (1994); four counts of arson, in violation of 18 U.S.C. 81, 1153, and 2 (1994); one
count of possession of an unregistered destructive device, in violation of 26 U.S.C. 5681(d), 5841, and 5871
(1994); one count of assault with a dangerous weapon, in
violation of 18 U.S.C. 113(a)(3), 1153, and 2 (1994); and
one count of tampering with a witness, in violation of

4
18 U.S.C. 1512(b)(3) and 2 (1994). C.A. E.R. 1-9. Following a trial, a jury found respondent guilty of all
charges. Id. at 136.
Applying the then-mandatory Sentencing Guidelines, the district court sentenced respondent to life imprisonment, to be followed by five years of supervised
release, on the murder count. C.A. E.R. 136; App., infra, 3a. With respect to the remaining counts, the court
sentenced respondent to a total of 20 years of imprisonment, to be followed by three years of supervised release. C.A. E.R. 136. The court of appeals affirmed.
165 F.3d 918, 1998 WL 863026 (Tbl.).
In 1999, respondent filed a motion under 28 U.S.C.
2255 to vacate his sentences. D. Ct. Doc. 210 (Nov. 29,
1999). The district court denied the motion—rejecting
respondent’s ineffective-assistance-of-counsel, due process, and Confrontation Clause claims—but granted a
certificate of appealability. D. Ct. Docs. 281, 287. The
court of appeals affirmed the denial of respondent’s
Section 2255 motion. 03-16300 C.A. Doc. 99-1. This
Court denied respondent’s petition for a writ of certiorari. 559 U.S. 1038 (No. 09-1044).
2. In 2012, this Court in Miller v. Alabama, supra,
“h[e]ld that mandatory life without parole for those under the age of 18 at the time of their crimes violates the
Eighth Amendment[].” 567 U.S. at 465. Respondent
obtained leave from the court of appeals to file a second
Section 2255 motion to challenge, in light of Miller, his
mandatory life-without-parole sentence for his participation in the murder of the Subway employee shortly
before his eighteenth birthday. 13-71056 C.A. Doc. 13-1.
The district court granted that second Section 2255 motion, vacated his original mandatory life sentence, and
resentenced him in a proceeding in which it recognized

5
its authority to impose a lower sentence on the murder
count. D. Ct. Doc. 331, at 2; App., infra, 65a-66a.
At respondent’s resentencing hearing, the district
court again imposed a sentence of life imprisonment
without parole, to be followed by five years of supervised release, this time as a matter of discretion. App.,
infra, 66a. The court informed the parties that it had
“consider[ed]” respondent’s “youth, immaturity, [and]
his adolescent brain at the time” of the murder. Id. at
65a. The court acknowledged that respondent “has improved himself while he’s been in prison.” Id. at 65a66a. The court emphasized, however, that respondent
had been “involved in the final decision to kill” the Subway employee, had “encouraged the shooter to pull the
trigger,” and had more generally been the “leader” of a
“violent and cold-blooded” “gang that terrorized the
Salt River Reservation community and surrounding area
for several years.” Ibid. Given “all the evidence” it had
“heard” and “read,” the court determined that a lifewithout-parole sentence was appropriate. Id. at 66a.
3. A divided panel of the court of appeals affirmed.
App., infra, 30a-63a. The majority rejected respondent’s contentions that the district court was required “to
make an explicit finding that [respondent] was ‘incorrigible,’ that the district court failed to adequately consider the ‘hallmarks of youth’ discussed in Miller, and
that the district court did not adequately consider [respondent’s] rehabilitation.” Id. at 41a. The majority
read Miller to “require[]” the sentencing judge “to take
into account how children are different, and how those
differences counsel against irrevocably sentencing
them to a lifetime in prison.” Id. at 44a (quoting Miller,
567 U.S. at 480). But the majority determined that the
sentencing judge “followed th[at] mandate because he

6
said so on the record—that he had considered everything he heard and read in conjunction with the sentencing hearing, including counsel’s impassioned arguments
regarding how the ‘hallmarks of youth’ particular to [respondent] counseled against imposition of a life sentence.” Id. at 45a.
Judge O’Scannlain concurred in part and dissented
in part. App., infra, 50a-63a. In his view, Miller and
Montgomery v. Louisiana, 136 S. Ct. 718 (2016)—which
held that “Miller announced a substantive rule of constitutional law” that applies retroactively on collateral
review, id. at 734—prohibited a sentence of life without
parole unless the district court found respondent to be
“permanently incorrigible,” and “nothing in the record”
indicated that the court had “even considered” that
question. App., infra, 53a. Judge O’Scannlain acknowledged, however, that if “Miller could be understood
merely as * * * mandating that sentencing courts must
consider certain hallmark characteristics of youth and
that they must be permitted to impose a sentence less
than life * * * , the district court likely would have complied with its dictates.” Id. at 52a.
4. The court of appeals granted rehearing en banc,
vacated respondent’s life-without-parole sentence, and
remanded for resentencing. App., infra, 1a-29a. In the
majority’s view, “Montgomery made clear that, after
Miller, juvenile defendants who are not permanently incorrigible or irreparably corrupt are constitutionally
ineligible for a sentence of life without parole.” Id. at
9a. The majority thus framed “Miller’s central inquiry”
as “whether the defendant is one of the rare juvenile offenders who is irredeemable, or whether the defendant
is capable of change.” Id. at 11a-12a. And the majority
found the record insufficient to show that the district

7
court had “meaningfully engaged” in that inquiry. Id.
at 16a.
Judge Bennett, joined by Judge Ikuta, dissented.
App., infra, 17a-29a. They would have found that “[t]he
district court did not commit any constitutional error in
imposing a life sentence,” id. at 17a, because “the district court did exactly what Miller requires—it considered [respondent’s] ‘youth and attendant characteristics,’ ” id. at 25a (quoting Miller, 567 U.S. at 483).
REASONS FOR GRANTING THE PETITION

The en banc court of appeals in this case invalidated
respondent’s discretionary life-without-parole sentence
for a crime he committed 23 days short of his eighteenth
birthday. App., infra, 2a; see pp. 2-3, supra. In rendering that decision, the majority below read this Court’s
decision in Miller v. Alabama, 567 U.S. 460 (2012), to
apply not only to mandatory life-without-parole sentences, but also to discretionary ones. App., infra, 9a.
It took the view that, under Miller, “[i]t is not enough
for sentencing courts to consider a juvenile offender’s
age before imposing life without parole.” Ibid. Rather,
in its view, “Miller’s central inquiry” is “whether the
defendant is one of the rare juvenile offenders who is
irredeemable, or whether the defendant is capable of
change,” id. at 11a-12a, and a discretionary life-withoutparole sentence for a juvenile is constitutionally invalid
if a reviewing court believes that the sentencing court
did not “meaningfully engage[] in” that inquiry, id. at
16a.
The issue of Miller’s proper scope is currently before
this Court in Mathena v. Malvo, No. 18-217 (argued
Oct. 16, 2019). Like the en banc court of appeals in this
case, the Fourth Circuit in Malvo read Miller to
“appl[y] beyond those situations in which a juvenile

8
homicide offender received a mandatory life-withoutparole sentence.” Malvo v. Mathena, 893 F.3d 265, 274
(2018), cert. granted, 139 S. Ct. 1317 (2019). And like
the en banc court of appeals in this case, the Fourth Circuit in Malvo took the view that a sentencing court “violates Miller’s rule any time it imposes a discretionary
life-without-parole sentence on a juvenile homicide offender without first concluding that the offender’s
‘crimes reflect permanent incorrigibility’ as distinct
from ‘the transient immaturity of youth.’ ” Ibid. (citation omitted). The parties in Malvo, as well as the
United States as amicus curiae, dispute whether that
view of Miller is correct. See, e.g., Pet. Br. at 24-27,
Malvo, supra (No. 18-217); U.S. Amicus Br. at 13-17,
Malvo, supra (No. 18-217); Resp. Br. at 22-30, Malvo,
supra (No. 18-217). *

Because “[l]itigants and lower courts cannot lightly disregard
any statements in an opinion of this Court,” the government has
previously told lower courts, including the court of appeals in this
case, that Montgomery’s reasoning “implicat[es] the validity of discretionary sentences as well as mandatory ones.” U.S. Amicus Br.
at 21, Malvo, supra (No. 18-217); see, e.g., Gov’t C.A. Resp. to Pet.
for Reh’g 3 (stating that Miller, when read in light of Montgomery,
“barred [life without parole] ‘for all but the rarest of juvenile offenders, those whose crimes reflect permanent incorrigibility’ ”) (quoting Montgomery v. Louisiana, 136 S. Ct. 718, 734 (2016)). After this
Court granted certiorari in Malvo, however, counsel for the government stated at oral argument before the en banc court of appeals
that she did not “see a reason not to” hold this case pending this
Court’s decision in Malvo. C.A. Oral Argument at 42:48, https://
www.ca9.uscourts.gov/media/view_video.php?pk_vid=0000015415.
Although counsel for the government also predicted only a “remote
possibility” that Malvo could affect the disposition of this case, id.
at 42:27, that statement was made before the parties filed their
briefs and this Court heard argument in Malvo.
*

9
Malvo involves Miller’s retroactive application to an
original sentencing, whereas this case involves Miller’s
prospective application to a resentencing. The issue of
Miller’s proper scope, however, bears on its application
both retroactively and prospectively, and thus the
Court’s decision in Malvo may affect the proper resolution of this case. Indeed, the issue of what Miller requires “[g]oing forward” was a focus of oral argument
in Malvo. Oral Argument Tr. at 43, Malvo, supra
(No. 18-217); see id. at 9-12, 14-19, 26, 35-46. Because
the decision below turned on the en banc court of appeals’ view of Miller’s scope, and because the proper
scope of Miller is currently before this Court in Malvo,
the Court should hold this petition for a writ of certiorari pending its decision in Malvo and then dispose of
the petition as appropriate in light of that decision.
CONCLUSION

The petition for a writ of certiorari should be held
pending this Court’s decision in Mathena v. Malvo,
No. 18-217 (argued Oct. 16, 2019), and then be disposed
of as appropriate in light of that decision.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
FREDERICK LIU
Assistants to the Solicitor
General
FRANCESCO VALENTINI
Attorney

DECEMBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 16-10150
D.C. No. 2:96-cr-00464-DLR-4
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
RILEY BRIONES, JR., AKA UNKNOWN SPITZ,
DEFENDANT-APPELLANT
Argued and Submitted En Banc: Mar. 27, 2018
San Francisco, California
Filed: July 9, 2019
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
OPINION

Before: SIDNEY R. THOMAS, Chief Judge, and SUSAN P. GRABER, M. MARGARET M CK EOWN, K IM
MCLANE WARDLAW, MARSHA S. BERZON, MILAN D.
SMITH, JR., SANDRA S. IKUTA, MORGAN CHRISTEN,
JACQUELINE H. NGUYEN, MARK J. BENNETT, and RYAN
D. NELSON, Circuit Judges.
Opinion by Judge CHRISTEN;
Dissent by Judge BENNETT
(1a)

2a
CHRISTEN, Circuit Judge:
In 1997, Riley Briones, Jr. received a mandatory sentence of life without the possibility of parole (LWOP) for
his role in a robbery that resulted in murder. Briones
was 17 years old at the time of the crime. In 2012, the
Supreme Court held that mandatory LWOP sentences
for juvenile offenders violate the Eighth Amendment’s
prohibition on cruel and unusual punishment. Miller v.
Alabama, 567 U.S. 460, 465 (2012). After the Miller
decision issued, Briones filed a motion pursuant to
28 U.S.C. § 2255 seeking to have his sentence vacated.
The district court granted the motion, held a second sentencing hearing, and reimposed the original sentence.
Because the district court’s analysis was inconsistent
with the constitutional principles the Supreme Court delineated in Miller and subsequent case law, we vacate
Briones’s sentence and remand to the district court.
I.

Background

Briones grew up on the Salt River Indian Reservation in Arizona. As a child, Briones endured physical
abuse from his father, Riley Briones, Sr., and was introduced to drugs and alcohol at age 11. Briones was a
fairly good student and he aspired to attend college.
After he and his girlfriend had a child while still in high
school, however, he dropped out to take a full-time position in an apprentice program, training to be a heavy
equipment operator.
Briones, his father, and his brother Ricardo founded
a gang called the Eastside Crips Rolling 30’s. While
still a teenager, Briones planned and participated in a
number of violent, gang-related crimes on the Reservation. The most serious of these crimes was the robbery

3a
of a Subway restaurant in May 1994, when Briones was
seventeen years old. Although Ricardo came up with
the idea, Briones agreed to the plan and drove four of
the gang’s members to the restaurant to carry it out.
Briones remained in the car as the getaway driver while
the others went inside and ordered food from the lone
employee, Brian Lindsey. As the food was being prepared, the only armed member of the cohort left the restaurant, spoke to Briones, then reentered the store and
shot Lindsey as he stood at the front counter, killing
him. The gang members grabbed their food and a bag
of money and ran back to Briones’s car.
Briones was arrested on December 21, 1995. He
was charged with “first degree/felony murder” for the
Subway robbery, and also charged with arson, assault,
and witness tampering because of other gang-related offenses. Briones’s father and brother were among the
five co-defendants. The government extended pretrial plea offers of twenty years in prison to all five defendants, but Briones’s father was “adamant” that neither he nor either of his sons should accept the deal.
Briones rejected the government’s offer, went to trial,
and was convicted on all charges. For the felony murder conviction, he was sentenced to a mandatory term of
life imprisonment without the possibility of parole. 1

The Presentence Report (PSR) reflects other very serious criminal conduct. It describes Briones providing Molotov cocktails for
gang members to throw at the homes of rival gang members; planting diversionary fires to occupy the authorities; planning a shooting;
covering up a separate drive-by shooting; assaulting a gang member
who knew about the Subway murder; and discussing plans to blow
up the Salt River Police Department and kill a tribal judge, federal
prosecutors, and Salt River Police investigators. Briones has
1

4a
In June of 2012, the Supreme Court issued its decision in Miller and held that the Eighth Amendment prohibits sentencing schemes that mandate life in prison
without the possibility of parole for juvenile defendants.
567 U.S. at 479. Miller explained that sentencing courts
must consider the unique social and psychological characteristics of juvenile offenders because “hallmark features” of youth reduce the penological justifications for
imposing LWOP sentences on juveniles. Id. at 477-80.
After Miller was decided, Briones filed a motion pursuant to 28 U.S.C. § 2255 seeking to have his sentence vacated. The government conceded that his “mandatory
life sentence [was] constitutionally flawed[,]” 2 and the
district court granted Briones’s motion.
Before Briones was resentenced, the Supreme Court
issued Montgomery v. Louisiana, 136 S. Ct. 718 (2016),
establishing that Miller’s substantive rule is to be given
retroactive effect. Id. at 736. Montgomery also provided additional guidance about the proper application
of Miller and specified that a sentence of life without the
possibility of parole is constitutionally permissible only
for “the rarest of juvenile offenders”—specifically, those
whose “crimes reflect permanent incorrigibility” and “irreparable corruption.” Montgomery, 136 S. Ct. at 734.
By the time the district court resentenced Briones in
March 2016, he was almost forty years old and he had
served nearly eighteen years in prison without a single
infraction of prison rules. In addition to maintaining a
perfect disciplinary record, Briones held a job in food
served all of the prison time imposed for his non-homicide crimes;
the only sentence remaining is the LWOP sentence for the Subway
robbery.
2
Briones v. United States, No. 13-71056, Dkt. No. 11, at 2.

5a
service; volunteered to speak with young inmates about
how to change their lives; completed his GED; and, in
1999 (sixteen years before his resentencing), married
Carmelita, the woman he had been dating since high
school and with whom he had a daughter. By all accounts, and as even the government conceded, Briones
had been a model inmate.
Briones cited Miller extensively in the memorandum
he filed in anticipation of the resentencing hearing, and
he asked the district court to impose a sentence of 360
months in accordance with the factors identified in Miller and his extensive history of rehabilitative efforts.
In his testimony at the resentencing hearing, Briones
expressed “[g]rief, regret, sorrow, pain, sufferings” for
his crimes and for Lindsey’s death. He described how
he was haunted by his actions, and he apologized to his
own family and to the victim’s family. Briones’s counsel argued that a life sentence would be “unconstitutional in violation of Graham and Miller,” and that the
presumption in Briones’s case should be against a life
sentence because Miller requires that LWOP be the exception rather than the rule. The government contended that Briones had not accepted responsibility because, when he was interviewed in advance of the second
sentencing hearing, Briones contested some aspects of
the PSR’s description of his responsibilities in the gang.
But Briones did not dispute the role he played in the
Subway robbery and murder, even saying at one point
in his testimony that it was “probably [his] fault” that
the robbery was not called off.
The district court’s sentencing remarks were quite
brief; its justification for reimposing LWOP comprised

6a
less than two pages of transcript. The court considered the PSR and letters written on Briones’s behalf,
the parties’ sentencing memoranda, the transcript of the
previous sentencing hearing, and the victim questionnaire. The court began with the Sentencing Guidelines
calculation—which yielded a life sentence—and then
stated: “in mitigation I do consider the history of the
abusive father, the defendant’s youth, immaturity, his
adolescent brain at the time, and the fact that it was impacted by regular and constant abuse of alcohol and
other drugs, and he’s been a model inmate up to now.”
The district court acknowledged that “[a]ll indications
are that defendant was bright and articulate” and that
“he has improved himself while he’s been in prison,” but
the court described Briones’s role in the Subway robbery as “be[ing] the pillar of strength for the people involved to make sure they executed the plan.” The
court stated that “some decisions have lifelong consequences” and reimposed a life sentence. Because there
is no parole in the federal system, the parties agree
that Briones’s life sentence is effectively LWOP. See
Sentencing Reform Act of 1984, Pub. L. No. 98473, tit.
II, §§ 218(a)(5), 235(a)(1), 98 Stat 1837, 2027, 2031.
II. Miller and Montgomery

The Supreme Court held in Miller “that the Eighth
Amendment forbids a sentencing scheme that mandates
life in prison without possibility of parole for juvenile offenders.” 567 U.S. at 479. Miller built on the Court’s
decisions in Roper v. Simmons, 543 U.S. 551, 568-69
(2005), and Graham v. Florida, 560 U.S. 48, 75 (2010),
which established that juvenile offenders are not eligible
for capital sentences and that the Eighth Amendment
precludes LWOP sentences for juveniles who commit

7a
non-homicide crimes. Miller, 567 U.S. at 470. These
decisions reflect the understanding that “children are
constitutionally different from adults for purposes of
sentencing.” Id. at 471.
Miller further develops these constitutional principles, requiring that, even when terribly serious and depraved crimes are at issue, courts “take into account
how children are different, and how those differences
counsel against irrevocably sentencing them to a lifetime in prison.” Id. at 480. Miller identified several
characteristics of youth: (1) difficulty appreciating
risks; (2) inability to escape dysfunctional home environments; (3) susceptibility to familial and peer pressure;
(4) inability to deal competently with law enforcement
or the justice system; and (5) potential for rehabilitation.
Id. at 477-78. The Court held that these factors must
be considered to determine whether a juvenile offender
may be sentenced to LWOP. See id. at 480 (“[W]e require [the sentencing court] to take into account how
children are different. . . . ” (emphasis added)).
Miller explains why these factors change the sentencing calculation for juveniles. Youth lack maturity,
and their underdeveloped sense of responsibility “lead[s]
to recklessness, impulsivity, and heedless risk-taking”;
juveniles are particularly vulnerable “‘to negative influences and outside pressures,’ including from their family and peers”; and youth “is a moment and ‘condition of
life when a person may be most susceptible to influence
and to psychological damage.’ ” Id. at 471, 476 (quoting
Roper, 543 U.S. at 569, and Eddings v. Oklahoma,
455 U.S. 104, 115 (1982)). The Eighth Amendment also
requires consideration of the reality that some juveniles
become trapped in particularly “brutal or dysfunctional”

8a
family situations over which they have no control, and
that juveniles struggle to competently deal with the criminal justice system. Id. at 477-78. By virtue of their
youth, juveniles also harbor greater rehabilitative potential. Id. at 478; see also id. at 471 (“[A] child’s character is not as well formed as an adult’s; his traits are
less fixed and his actions less likely to be evidence of irretrievable depravity.” (internal quotation marks and
brackets omitted)).
These factors erode the justification for imposing
LWOP sentences, even when juveniles commit terrible
crimes. Id. at 472. The characteristics of youth lessen
moral culpability and thereby reduce the rationale for
retribution. Id. The same characteristics that render
juveniles less culpable than adults also make them less
likely to be dissuaded by potential punishment, thereby
minimizing the potential deterrent effect of a life sentence.
Id. And permanent incapacitation is less likely to be required to protect society because juvenile offenders are
more likely to shed the problematic attributes of youth
as a result of ongoing neurological development. Id. at
472-73. 3 The characteristics of an individual juvenile
offender will determine whether a crime reflects “transient immaturity” (in which case, an LWOP sentence for
a juvenile is impermissible) or “irreparable corruption”
(in which case an LWOP sentence for a juvenile is constitutionally permitted). Id. at 479-80 (emphasis added).
As a result, the Court cautioned, “appropriate occasions
The Court reaffirmed in Miller what it had previously observed
in Graham, 560 U.S. at 68: there are physiological differences
between adults and juveniles in the regions of the brain related to
“impulse control, planning ahead, and risk avoidance[.]” Miller,
567 U.S. at 472 n.5 (internal quotation marks omitted).
3

9a
for sentencing juveniles to this harshest possible penalty will be uncommon.” Id. at 479.
In Montgomery, the Supreme Court held that the
rule announced in Miller is a substantive constitutional
limitation on life sentences for crimes committed by juveniles, as well as a procedural requirement. 136 S. Ct.
at 736. Miller’s “substantive holding” was that “life
without parole is an excessive sentence for children
whose crimes reflect transient immaturity,” and its procedural component implementing the substantive rule
requires “[a] hearing where ‘youth and its attendant
characteristics’ are considered as sentencing factors” in
order to “separate those juveniles who may be sentenced to life without parole from those who may not.”
Id. at 735 (quoting Miller, 567 U.S. at 465). It is not
enough for sentencing courts to consider a juvenile offender’s age before imposing life without parole. The
Eighth Amendment dictates that “sentencing a child to
life without parole is excessive for all but ‘the rare juvenile offender whose crime reflects irreparable corruption. . . . ’ ” Id. (quoting Miller, 567 U.S. at 47980). Montgomery made clear that, after Miller, juvenile defendants who are not permanently incorrigible
or irreparably corrupt are constitutionally ineligible
for a sentence of life without parole. See id. (“Miller
. . . rendered life without parole an unconstitutional
penalty for . . . juvenile offenders whose crimes reflect the transient immaturity of youth.”).
Miller and Montgomery are fairly recent decisions,
and there is relatively little case law addressing how to
evaluate the post-incarceration conduct of juvenile offenders for purposes of Miller. Our decision in United
States v. Pete, 819 F.3d 1121 (9th Cir. 2016), did provide

10a
some guidance, though we recognize it was not issued
until after Briones’s resentencing. In Pete, a juvenile
offender who had been sentenced to LWOP was granted
resentencing in light of Miller. Id. at 1126. To prepare for resentencing, the defendant sought funding to
obtain a neuropsychological evaluation. Id. The district court concluded that the evaluation was unnecessary because the defendant had undergone a psychiatric
evaluation ten years earlier, when he was originally sentenced. Id. at 1127. We held that the district court
abused its discretion by denying the funding request because “the critical question under Miller was [the defendant’s] capacity to change after he committed the
crimes at the age of 16.” Id. at 1133. A new evaluation may reflect changes in the defendant’s maturity or
emotional health, and “whether [the defendant] has
changed in some fundamental way since that time, and
in what respects, is surely key evidence.” Id.
Taken together, Miller, Montgomery, and Pete make
clear that a juvenile defendant who is capable of change
or rehabilitation is not permanently incorrigible or irreparably corrupt; that a juvenile who is not permanently incorrigible or irreparably corrupt is constitutionally ineligible for an LWOP sentence; and that a juvenile’s conduct after being convicted and incarcerated
is a critical component of the resentencing court’s analysis.
III.

Briones’s Resentencing

We review the district court’s factual findings
for clear error, but “review de novo a claim that a sentence violates a defendant’s constitutional rights.”
United States v. Hunt, 656 F.3d 906, 911 (9th Cir. 2011)
(citing United States v. Raygosa-Esparza, 566 F.3d 852,

11a
854 (9th Cir. 2009)). District courts’ sentencing decisions are entitled to deference, see, e.g., United States v.
Martinez-Lopez, 864 F.3d 1034, 1043 (9th Cir.) (en
banc), cert. denied, 138 S. Ct. 523 (2017), but this deference is not absolute. 4
Here, the district court properly began by calculating Briones’s Sentencing Guidelines range, which yielded
a sentence of life without parole. District courts must
begin with the Guidelines calculation, 5 but they “may
not presume that the Guidelines range is reasonable.”
United States v. Carty, 520 F.3d 984, 991 (9th Cir. 2008)
(en banc). After calculating the Guidelines range, sentencing courts next turn to the factors and considerations identified in 18 U.S.C. § 3553(a). Id. If LWOP
is a possible sentence for a juvenile offender, then the
totality of the evidence and the § 3553(a) factors inform
Miller’s central inquiry: whether the defendant is one
of the rare juvenile offenders who is irredeemable, or

See Martinez-Lopez, 864 F.3d at 1043 (reversal of sentence is appropriate “if the [district] court applied an incorrect legal rule”);
United States v. Meredith, 685 F.3d 814, 818, 826-27 (9th Cir. 2012)
(partially vacating a sentence because the district court failed to consider evidence presented at sentencing); United States v. Staten,
466 F.3d 708, 715-17 (9th Cir. 2006) (remanding for consideration of
certain statutory factors and factual elements).
5
We reject the suggestion advanced by Briones and certain amici
that district courts should no longer begin with the Sentencing
Guidelines in juvenile cases because doing so creates a presumption
(or at least momentum) in favor of LWOP sentences that should be
“rare” and “uncommon” after Miller. The Supreme Court has long
required that “a district court should begin all sentencing proceedings by correctly calculating the applicable Guidelines range.” Gall
v. United States, 552 U.S. 38, 49 (2007).
4

12a
whether the defendant is capable of change. Montgomery, 136 S. Ct. at 734-36. We recognize that some
tension exists between Miller’s mandate and the Sentencing Guidelines, 6 but Miller imposes a constitutional
requirement. So where Miller is applicable, the Guidelines must be applied consistently with Miller’s rule.
We agree with the government that the severity of a
defendant’s crime is indisputably an important consideration in any sentencing decision. The severity of the
crime is reflected in the Guidelines sentencing range
calculation, which incorporates the nature of the offense,
and in § 3553, which expressly includes consideration of
the offense characteristics. 18 U.S.C. § 3553(a)(1)-(2).
Nothing about Miller and Montgomery’s Eighth
Amendment analysis minimizes the gravity of a juvenile
defendant’s criminal conduct; indeed, Miller and Montgomery also involved horrible crimes. See Miller,
567 U.S. at 465-68 (one petitioner participated in the
murder of a video store clerk, and the other burned a

Briones’s counsel argues that the Guidelines “generally forbid”
consideration of several factors that may bear on a Miller analysis,
such as U.S.S.G. § 5H1.1 (defendant’s age), § 5H1.2 (education and
vocational skills), § 5H1.3 (mental and emotional conditions), § 5H1.4
(physical condition), § 5H1.5 (employment record), § 5H1.6 (family
ties and responsibilities), and § 5H1.10 (race, sex, national origin,
creed, religion, and socio-economic status). But with the exception
of § 5H1.10—which bars consideration of factors like race, sex, and
national origin that are not relevant to Miller’s inquiry—the Guidelines actually provide that the factors Briones’s counsel identified
“may be relevant” or otherwise are simply “not ordinarily relevant.”
U.S.S.G. §§ 5H1.1-1.6 (emphasis added). Thus, the Guidelines are
entirely compatible with Miller’s directive that courts consider a juvenile offender’s youthful characteristics before taking the rare step
of imposing an LWOP sentence.
6

13a
neighbor’s trailer with the neighbor inside); Montgomery, 136 S. Ct. at 725-26 (petitioner shot and killed a deputy sheriff).
Despite the harm caused by juveniles’ criminal acts,
Miller requires a sentencing analysis that accounts
for the characteristics of youth that undermine the penological justification for lifelong punishment. Miller,
567 U.S. at 472; see also Graham, 560 U.S. at 68. This
diminished justification for lifelong punishment is why
LWOP sentences are “disproportionate for all but the
rarest” juvenile offenders, Montgomery, 136 S. Ct. at
726, “even when they commit terrible crimes.” Miller,
567 U.S. at 472. Accordingly, when courts consider
Miller’s central inquiry, they must reorient the sentencing analysis to a forward-looking assessment of the defendant’s capacity for change or propensity for incorrigibility, rather than a backward-focused review of the
defendant’s criminal history.
Based on the district court’s articulated reasoning at
Briones’s resentencing, we cannot tell whether the district court appropriately considered the relevant evidence of Briones’s youth or the evidence of his postincarceration efforts at rehabilitation. The district
court described Briones’s crime and his history of gangrelated violence, identified certain factors it considered
“in mitigation,” and stated that “some decisions have
lifelong consequences.” In this way, the district court’s
sentencing remarks focused on the punishment warranted by the terrible crime Briones participated in, rather than whether Briones was irredeemable. The district court’s statement that it considered some factors in
“mitigation” suggests that the district court applied the
Guidelines and began with a presumption that LWOP

14a
would be appropriate. As we have explained, however,
a sentencing court may not presume the propriety of a
Guidelines sentence, see Carty, 520 F.3d at 991, particularly in juvenile LWOP cases after Miller. Rather, the
Constitution requires that the court consider a juvenile
offender’s youthful characteristics before taking the
rare step of imposing an LWOP sentence.
Briones provided evidence related to a number of the
Miller factors at the resentencing hearing, including his
abusive upbringing, 7 his extensive exposure to drugs
and alcohol beginning when he was only eleven years
old, 8 his difficulty finding acceptance at his local high
school because of his Native American traditions, 9 and
his father’s inexplicable insistence that he reject the
government’s favorable plea offer even though Briones
faced a mandatory LWOP sentence if convicted. Briones’s lawyer also argued that Briones was somewhat
less culpable because he was the getaway driver, not the
shooter. Id. at 478. Most significant, Briones offered
Despite his devotion to his father, Briones acknowledged during
his resentencing testimony that his father beat him and whipped him
when he was a child. On one occasion, he went to school with blood
seeping through his shirt because of his father’s abuse.
8
The PSR recounted that Briones was drinking hard liquor on the
weekends by the time he was eleven years old. Briones and his wife
both testified that he consumed a substantial amount of alcohol on a
daily basis as a child, and that even when Briones was young, his
parents drank heavily and generally acceded to Briones’s own heavy
drinking.
9
Briones’s father told him of a distant relative who was “the last
man to have his hair long[.]” Briones was moved by that account
and let his hair grow long to “express his Native American identity.”
But when he tried out for the high school football team, the coach
told him he could not be on the team unless he cut his hair.
7

15a
abundant evidence on the critical issue: that he was
not irreparably corrupt or irredeemable because he had
done what he could to improve himself within the confines of incarceration.
The eighteen years that passed between the original
sentencing hearing and the resentencing hearing provide a compelling reason to credit the sincerity of Briones’s efforts to rehabilitate himself. Briones was sentenced in 1997; Miller was not issued until 2012. Thus,
for the first fifteen years of Briones’s incarceration, his
LWOP sentence left no hope that he would ever be released, so the only plausible motivation for his spotless
prison record was improvement for improvement’s sake.
This is precisely the sort of evidence of capacity for
change that is key to determining whether a defendant
is permanently incorrigible, yet the record does not
show that the district court considered it. This alone
requires remand. See Pete, 819 F.3d at 1133.
The district court may have hesitated to fully consider Briones’s post-incarceration conduct because we
had not yet issued our decision in Pete, and because the
government argued that the court had to “make some
guesses as to what Judge Broomfield would have done
back [at Briones’s original sentencing] had Judge Broomfield had the option of something other than a life sentence available to him.” On this point, the government’s
argument missed the mark. Pete explained that “whether [the juvenile offender] has changed in some fundamental way since [the original sentencing], and in what
respects, is surely key evidence.” 819 F.3d at 1133.
We reaffirm that when a substantial delay occurs between a defendant’s initial crime and later sentencing,
the defendant’s post-incarceration conduct is especially

16a
pertinent to a Miller analysis. See id.; see also Montgomery, 136 S. Ct. at 736 (“The petitioner’s submissions
[of his reformation while in prison] are relevant . . .
as an example of one kind of evidence that prisoners
might use to demonstrate rehabilitation.”). The key
question is whether the defendant is capable of change.
See Pete, 819 F.3d at 1133. If subsequent events effectively show that the defendant has changed or is capable
of changing, LWOP is not an option.
The district court’s heavy emphasis on the nature of
Briones’s crime, coupled with Briones’s evidence that
his is not one of those rare and uncommon cases for
which LWOP is a constitutionally acceptable sentence,
requires remand. We do not suggest the district court
erred simply by failing to use any specific words, see
Montgomery, 136 S. Ct. at 735, but the district court
must explain its sentence sufficiently to permit meaningful review. See Carty, 520 F.3d at 992 (“Once the
sentence is selected, the district court must explain it
sufficiently to permit meaningful appellate review.
. . . What constitutes a sufficient explanation will necessarily vary depending upon the complexity of the particular case. . . . ”). When a district court sentences
a juvenile offender in a case in which an LWOP sentence
is possible, the record must reflect that the court meaningfully engaged in Miller’s central inquiry.
IV.

Conclusion

We vacate Briones’s sentence and remand for consideration of the entirety of Briones’s sentencing evidence.
VACATED and REMANDED.

17a
BENNETT, Circuit Judge, with whom IKUTA, Circuit
Judge, joins, dissenting:
I respectfully dissent. The district court did not commit any constitutional error in imposing a life sentence,
and I would therefore affirm.
I.

Riley Briones, Jr. was a founder and leader of a vicious gang called the Eastside Crips Rolling 30’s. Briones helped plan and carry out a series of violent crimes
committed by the gang on the Salt River Indian Reservation in 1994 and 1995. Briones’s most serious crime,
committed less than one month before his eighteenth
birthday, was the planned robbery and murder of a Subway employee. 1
On May 15, 1994, Briones drove four other gang
members, one armed with a gun, to the Subway restaurant and waited in the vehicle while the others entered
the restaurant. Prior to the murder, the gunman returned to the car and conferred with Briones, then returned to the restaurant and shot the employee in the
face, and then shot him several more times as he lay injured or dying on the floor. 2 The conspirators stole a
bank bag containing $100 (plus the food that they had
ordered). One testified that after they returned to the
car with the proceeds, Briones instructed another to
grab a rifle from the backseat and shoot a maintenance
As the district judge stated at the sentencing at issue in this case:
“The murder of the [Subway] clerk was planned. It wasn’t an accident, it wasn’t unexpected.”
2
The district judge stated at sentencing: “I don’t know what
other conclusion can be drawn than that the defendant was involved
in the final decision and encouraged the shooter to pull the trigger.”
1

18a
worker who had been working in front of the Subway
when they arrived. Though they searched for the
worker to kill him as Briones had instructed, fortunately
they did not find him.
Three weeks later—one day before Briones’s eighteenth birthday—he and other gang members conspired
to burn down the family residence of a rival gang member. Briones personally constructed the Molotov cocktails that another gang member used to firebomb the
house. Luckily, the family inside—including a tenyear-old asleep on a couch—was not harmed.
Briones (now having reached the age of majority)
and other gang members again decided to burn down
the same rival gang member’s home. Concerned that
the fire department could thwart their plans, this time
they decided to first start diversionary fires to lower the
risk that the blaze at the targeted home would be prematurely contained. 3 Briones drove other gang members
to two abandoned buildings, where they started the diversionary fires. With the first step of their scheme
completed, Briones then drove his co-conspirators to
their rival’s home, which had survived the first firebombing. Briones personally constructed the five Molotov cocktails that were used to start one of the diversionary fires and to firebomb the home, and he also provided the gasoline used to start the second diversionary

There is no evidence in the record that Briones or his coconspirators were targeting the many families in nearby houses—
their actual target lived in the firebombed home. Neighbors were
merely potential collateral damage.
3

19a
fire. Many people, of course, could have been killed, including two children inside the firebombed home.
Again, thankfully, no one was killed.
Attempt two having failed, Briones moved on to attempt three about a month later. Briones helped plan
a drive-by shooting of the same home. Though Briones
was neither the driver nor the shooter, he and another
gang member went to Briones’s home to pick up the assault rifle used in the shooting. Afterward, Briones
wiped the fingerprints off the assault rifle and directed
other gang members to discard the shell casings and
drop off the stolen car used in the shooting in an isolated
place. Again, those inside the home during the shooting were unharmed, though not due to any lack of trying
by Briones.
In 1995, Briones violently assaulted a member of his
gang in order to stop him from speaking to law enforcement about the Subway murder. Briones broke a beer
bottle on the victim’s face and pistol-whipped his head.
The victim testified at trial that Briones knocked him unconscious, and when he regained consciousness, he overheard Briones and others discussing “how they [were]
going to dispose of [him].” That victim escaped and
eventually cooperated.
At trial, the government presented evidence that the
gang planned to blow up the Salt River Police Department and kill a tribal judge, federal prosecutors, and
Salt River Police investigators. Briones and two others followed one investigator to lunch but did not shoot
him because there were too many witnesses. The government also received information that at Briones’s direction gang members practiced shooting at objects
from a hilltop to simulate shooting from the roofs of

20a
buildings near the federal building. The government
received information that while in jail, Briones carved
gang graffiti into the door of a jail cell and discussed
plans to escape.
Briones was convicted of all charged offenses, including felony murder, arson, assault, and witness tampering. At his original sentencing in July 1997, almost
three years after the Subway murder, Briones continued to deny responsibility for his crimes. The district
court sentenced Briones to the then-mandatory guidelines sentence of life imprisonment without parole on the
felony murder count. 4
Briones’s original sentence was vacated in light of
Miller v. Alabama, 567 U.S. 460 (2012). During resentencing, Briones argued that the sentencing guidelines,
which recommend a life sentence in his case, should be
set aside under Miller. He also argued that an appropriate sentence would be 360 months “based on the evidence in mitigation” he would present, including relating to the “hallmarks of youth” identified by Miller. 5
The resentencing record before the district court
was comprehensive. It included the transcript of Briones’s original sentencing, resentencing memoranda submitted by the parties, testimony from Briones and his
wife at the resentencing hearing, arguments from coun-

As noted by the majority, the only issue before us is Briones’s
sentence for his felony murder conviction. Maj. at 7 n.1.
5
I question whether Briones appropriately raised the specific argument below that he now raises on appeal—that it would be constitutional error for the court to impose a life without parole sentence
because his crimes do not reflect “permanent incorrigibility.” I
would affirm regardless.
4

21a
sel during the resentencing hearing, the presentence report (PSR)—which had been revised to include new information since Briones’s incarceration—and letters on
behalf of Briones and the victim questionnaires that
were attached to the PSR. The district court adopted
the findings in the PSR, and Briones made no objections
to the PSR.
After considering all of the information in the record,
the district court determined that a life without parole
sentence was appropriate.
[I]n mitigation I do consider the history of the
abusive father, the defendant’s youth, immaturity,
his adolescent brain at the time, and the fact that it
was impacted by regular and constant abuse of alcohol and other drugs, and he’s been a model inmate up
to now.
However, some decisions have lifelong consequences. This robbery was planned, maybe not by
the defendant but he took over and was all in once the
plan was developed. He drove everybody there.
He appeared to be the pillar of strength for the people involved to make sure they executed the plan.
The murder of the clerk was planned. It wasn’t an
accident, it wasn’t unexpected. Although the defendant did not pull the trigger, he was in the middle
of the whole thing. He stayed in the car, apparently, to avoid responsibility.
And circumstantially, at least, it appears that defendant was involved in the final decision to kill the
young clerk. Eschief came out to the car and spoke
to him and walked right back in and shot him in the
head. He spoke to the defendant right before he

22a
pulled the trigger. I don’t know what other conclusion can be drawn than that the defendant was involved in the final decision and encouraged the
shooter to pull the trigger.
All indications are that defendant was bright and
articulate, he has improved himself while he’s been in
prison, but he was the leader of a gang that terrorized
the Salt River Reservation community and surrounding area for several years. The gang was violent
and cold-blooded.
Having considered those things and all the evidence I’ve heard today and everything I’ve read,
. . . it’s the judgment of the Court that [Briones] is
hereby committed to the Bureau of Prisons for a sentence of life.
II.
A.

Briones argues that, under Miller, the district court
committed constitutional error by imposing a life without parole sentence. We normally review “de novo
the constitutionality of a sentence.” United States v.
Estrada-Plata, 57 F.3d 757, 762 (9th Cir. 1995). 6 Assuming de novo review applies, I conclude that the district court did not commit any constitutional error and
If Briones failed to properly raise the specific constitutional argument that he asserts on appeal, we would apply plain error review.
See United States v. Ameline, 409 F.3d 1073, 1078 (9th Cir. 2005) (en
banc) (plain error review applies where an individual fails to raise
the constitutional error in the district court). “Plain error is ‘(1) error, (2) that is plain, and (3) that affects substantial rights.’ ” Id.
(quoting United States v. Cotton, 535 U.S. 625, 631 (2002)). Because
the district court did not err at all, it obviously did not plainly err.
6

23a
imposed a permissible sentence supported by the record.
B.

The district court fully complied with the requirements in Miller. The Court in Miller held that “the
Eighth Amendment forbids a sentencing scheme that
mandates life in prison without possibility of parole for
juvenile offenders.” 567 U.S. at 479. After analyzing
its precedent, the Court determined that a sentencer
“must have the opportunity to consider mitigating circumstances before imposing the harshest possible penalty for juveniles.” Id. at 489 (emphasis added). The
Court then concluded that “[b]y requiring that all children convicted of homicide receive lifetime incarceration
without possibility of parole, regardless of their age and
age-related characteristics and the nature of their crimes,
the mandatory-sentencing schemes . . . violate this
principle of proportionality, and so the Eighth Amendment’s ban on cruel and unusual punishment.” Id.
The Court noted, however, that a life sentence without the possibility of parole for juveniles in homicide
cases is a permissible sentence. Id. at 480. And the
Court offered explicit guidance on what is required to
properly impose life sentences for juveniles:
The
Court’s decision “mandates only that a sentencer follow
a certain process—considering an offender’s youth and
attendant characteristics—before imposing a particular
penalty.” Id. at 483 (emphases added).
Consequently, Miller does not require a sentencer to
make any explicit findings before imposing a life sentence on a defendant who was a juvenile at the time of
the offense. Miller requires a sentencer to “consider,”

24a
“examine,” or “take into account how children are different.” Id. at 480, 483, 489. The Court makes clear
throughout its opinion that nothing more is required.
See, e.g., id. at 478-80 (explaining that “a sentencer
should look at such facts,” “a sentencer needed to examine all these circumstances,” and “we require [a sentencer] to take into account how children are different”
(emphases added)).
In Montgomery v. Louisiana, 136 S. Ct. 718 (2016),
the Court clarified the requirements under Miller.
There, the Court determined that “Miller did bar life
without parole . . . for all but the rarest of juvenile
offenders, those whose crimes reflect permanent incorrigibility.” Id. at 734. The Court ultimately held that
“Miller announced a substantive rule that is retroactive
in cases on collateral review.” Id. at 732. But Montgomery did not bar life without parole sentences in murder cases and did not change what a sentencer must do
before imposing such a sentence on a defendant who
committed the murder as a juvenile. Indeed, Montgomery confirmed that there is no factfinding requirement before imposing such a sentence. Id. at 734-35.
In sum, Miller, as clarified by Montgomery, requires
a sentencer “to consider a juvenile offender’s youth and
attendant characteristics before determining that life
without parole is a proportionate sentence,” 136 S. Ct.
at 734, and, if life without parole is imposed, it must be
proportionate. That is, the circumstances must support that the juvenile offender’s “crimes reflect permanent incorrigibility,” id., not “transient immaturity,” id.
at 735. Importantly, Miller does not require a sen-

25a
tencer to make findings that a juvenile offender is permanently incorrigible before imposing a life sentence
without parole.
The district court here complied with Miller. First,
there is no doubt that the district court was fully aware
of Miller’s requirements. Indeed, Miller was the sole
reason Briones was resentenced. The parties’ memoranda cited Miller throughout. Briones’s memorandum explicitly set forth the “hallmarks of youth” that
the court must consider before imposing a life without
parole sentence, and the government’s memorandum,
quoting Miller, highlighted that the court’s task was to
consider whether Briones’s crimes reflect “unfortunate
yet transient immaturity” or “irreparable corruption.”
And during the resentencing hearing, counsel for both
parties focused their arguments on Miller’s requirements.
With the correct standards in mind, the district court
did exactly what Miller requires—it considered Briones’s “youth and attendant characteristics.” 567 U.S.
at 483. We know this because the district court explicitly stated that it considered Briones’s “youth, immaturity, [and] adolescent brain at the time,” and other evidence attendant to his youth, including “the history of
[his] abusive father” and Briones’s “constant abuse of
alcohol and other drugs.” We also know that the district court considered Briones’s post-incarceration efforts at rehabilitation because the court expressly
stated that Briones has “been a model inmate up to now”
and “[Briones] has improved himself while he’s been in
prison.”
The district court further stated that it
adopted the findings in the PSR, which contained infor-

26a
mation about Briones’s youth and post-incarceration rehabilitation efforts. Thus, contrary to the majority’s
opinion, the district court very clearly considered Briones’s youth, youth-related characteristics, and postincarceration rehabilitation efforts. 7
The district court therefore was aware of and applied
the appropriate standards announced in Miller. The
record also supports that the district court imposed a
permissible sentence. The district court found that

The majority criticizes the sentencing judge’s remarks about Briones’s crime and history of gang-related violence and his statement
that “some decisions have lifelong consequences.” Maj. at 16-17.
The majority claims that these remarks demonstrate that the district court “focused on the punishment warranted by the terrible
crime . . . rather than whether Briones was irredeemable.”
Maj. at 17. But the majority’s conclusion completely ignores the
sentencing judge’s express statements that demonstrate he did in
fact consider Briones’s post-incarceration efforts at rehabilitation.
The majority also criticizes the sentencing judge’s remarks about
factors he considered in mitigation. Maj. at 17. But the remarks
made by the district court that the majority criticizes actually
demonstrate that the district court considered proper information.
See Miller, 567 U.S. at 489 (“[A] judge or jury must have the opportunity to consider mitigating circumstances before imposing the
harshest possible penalty for juveniles.”) (emphasis added);
18 U.S.C. § 3553(a) (“The court, in determining the particular sentence to be imposed, shall consider . . . the nature and circumstances of the offense and the history and characteristics of the defendant[.]”). Further, the district court’s statement that “some decisions have lifelong consequences” is entirely consistent with and
necessarily follows from Miller, as Miller recognized that life without parole remains a permissible sentence for some juvenile offenders. 567 U.S. at 480. Thus, some crimes committed by some juveniles will have lifelong consequences.
7

27a
Briones was a founding member and leader of an extraordinarily violent gang. 8 The robbery and murder
of the Subway employee was planned and brutal. Although Briones did not pull the trigger, as the district
court found, he “was involved in the final decision [to kill
the employee] and encouraged the shooter to pull the
trigger.” Moreover, he was only twenty-three days
shy of his eighteenth birthday when he participated in
the murder and instructed his subordinates to murder a
witness. And the day before his eighteenth birthday
he firebombed a home without any regard for the death
and damage it might cause. Even after he reached the
age of majority, he risked wide-scale death and destruction through another firebombing, a drive-by shooting,
and gang leadership. Many could have died from his
actions—only one was proven to have.
Though Briones had the opportunity to express remorse at his original sentencing three years after the
murder, he continued to deny responsibility for his
crimes. During the resentencing hearing, government
counsel stated that he had met with Briones the day before the hearing—almost twenty-two years after the
murder—and even then Briones failed to accept responsibility and minimized his role in the murder and within
The district court described the gang as “violent and coldblooded.” Several of Briones’s co-defendants were convicted of conspiracy to participate in a racketeering enterprise, i.e., the Eastside
Crips Rolling 30’s gang. The indictment described the gang as a
“criminal organization” that “engaged in acts of violence, including
murder, attempted murder, assault, arson, robbery, and intimidation of witnesses.” Prospective gang members had to “carry out a
violent act to prove [their] worth,” and there was a group within the
gang known as the “Skins Killing Slobs” or “Dark Army,” whose job
was to “assassinate anyone who posed a risk” to the gang.
8

28a
the gang. When Briones testified at his resentencing
hearing, he still maintained that he was “surprised”
when he heard the gunshots that killed the Subway employee, and still denied that he was a leader in the gang.
The district court’s factual findings to the contrary were
not clearly erroneous. When deciding to impose a sentence of life without parole, the district court expressly
stated that it considered this information: “Having
considered . . . all the evidence I’ve heard today
[during the resentencing hearing] and everything I’ve
read . . . [Briones] is hereby committed to the Bureau of Prisons for a sentence of life.” As there is no
requirement under Miller that the district court make
any specific findings before imposing a life without parole sentence, there is no error here—constitutional,
plain, or otherwise.
Thus, despite evidence of Briones’s rehabilitation,
youth when the heinous crimes were committed, and
youth-related characteristics, the record supports that
Briones’s crimes reflect permanent incorrigibility, as opposed to transient immaturity. The district court therefore imposed a permissible sentence. Notably, the majority does not conclude that a life without parole sentence is impermissible in this case. Instead, although
the majority claims otherwise, the majority’s opinion vacates the district court’s sentence because the district
court failed to find that Briones was permanently incorrigible. But as discussed above, there is no requirement for the district court to make any specific findings
before imposing a life without parole sentence. In
short, the majority, citing Montgomery, states that it
“do[es] not suggest the district court erred simply by
failing to use any specific words,” Maj. at 19. But in
clear contravention of Montgomery, that is precisely

29a
why it has reversed. We remand for the district court
to do again what it has already done.
Because the district court complied with Miller’s requirements and imposed a permissible sentence supported by the record, I would affirm.

30a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 16-10150
D.C. No. 2:96-cr-00464-DLR-4
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
RILEY BRIONES, JR., AKA UNKNOWN SPITZ,
DEFENDANT-APPELLANT
Argued and Submitted: Aug. 15, 2017
San Francisco, California
Filed: May 16, 2018
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
OPINION

Before: DIARMUID F. O’SCANNLAIN and JOHNNIE
B. RAWLINSON, Circuit Judges, and DAVID A. EZRA, * District Judge.
Opinion by Judge RAWLINSON; Partial Concurrence
and Partial Dissent by Judge O’SCANNLAIN

The Honorable David A. Ezra, United States District Judge for
the District of Hawaii, sitting by designation.
*

31a
RAWLINSON, Circuit Judge:
We must decide whether the district court appropriately rejected a juvenile offender’s argument that he
should not receive a sentence of life without parole.
I
A
Riley Briones, Jr. was a founder and leader of a gang
styled the “Eastside Crips Rolling 30’s.” Briones was
involved in and helped to plan a series of violent crimes
committed by the gang on the Salt River Indian Reservation. As a result of these crimes, on October 23,
1996, Briones and four other members of the gang were
indicted on federal charges including felony murder, arson, assault, and witness tampering.
The most serious of the crimes was a murder committed on May 15, 1994, when Briones was seventeen.
According to evidence presented at trial, Briones and
fellow gang members planned to rob a Subway restaurant knowing that there would be only one employee
present. Briones drove four other gang members to
the restaurant, including one armed with a gun, and
parked his car outside while the other four went in to
rob the store. They ordered food from the lone employee, and while it was being prepared, the gunman returned to the car to speak with Briones, then went back
into the restaurant, shot the clerk in the face, and then
shot him several more times on the floor. With the
cash register locked, the gang members were able to
steal only a bag with $100 and the food they had ordered.
One of the gang members, who eventually cooperated
with the government, testified that after they got back
in the car, Briones looked for a maintenance man whom

32a
he thought had seen them. According to the cooperating witness, Briones instructed the other gang members
to shoot the maintenance man.
Three weeks later, Briones helped plan to firebomb
a rival gang member’s home and prepared the Molotov
cocktails to be used. Although Briones was not the one
to throw them, a fellow gang member did, setting fire to
a house with a family inside, including an eleven-yearold girl. Fortunately, the child was not harmed. Several months later, the gang decided to try firebombing
the same home again. Briones once more provided
Molotov cocktails and drove other gang members to a
kindergarten and an abandoned trailer house to set diversionary fires. Briones then drove them to the rival
gang member’s home, which they firebombed. Again,
fortunately, the family was unharmed. Another month
later, Briones helped plan a drive-by shooting of the
same home, although he was neither the driver nor the
shooter.
Over the next year, Briones continued to participate
in gang-related crimes. He pistol whipped a member
of his gang who revealed he knew about the Subway
murder. That gang member managed to escape and
eventually cooperated with authorities. When other
gang members committed another drive-by shooting of
a home with a mother and child inside, Briones made
sure the culprits disposed of their clothes and accounted
for the shell casings. At trial, the government also presented evidence that Briones discussed escaping from
custody, that he carved gang graffiti into the door of a
jail cell, and that he discussed plans to blow up the Salt
River Police Department and to kill a tribal judge, federal prosecutors, and Salt River Police investigators.

33a
Briones was arrested on December 21, 1995. He
was one of five co-defendants, each of whom was made a
plea offer of twenty years in prison. Briones declined
the offer, in part because his father (one of the codefendants) would not take the deal. Ultimately, Briones was convicted of all charged offenses. At the original sentencing in July, 1997, Briones continued to deny
responsibility for the crimes. As part of its sentencing
determination, the district court found that Briones was
the leader of the gang, and imposed the then-mandatory
guidelines sentence of life imprisonment without parole
on the felony murder count. Briones was also sentenced to ten and twenty years, respectively, to run concurrently on the non-homicide counts, which he has
since served.
B
Fifteen years after Briones’s original sentencing, the
Supreme Court held in Miller v. Alabama that “the
Eighth Amendment forbids a sentencing scheme that
mandates life in prison without possibility of parole for
juvenile offenders.” 567 U.S. 460, 479 (2012) (citation
omitted). In light of that holding, a sentencing judge is
required “to take into account how children are different, and how those differences counsel against irrevocably sentencing them to a lifetime in prison.” Id. at 480
(footnote reference omitted). On the basis of Miller,
Briones filed a motion under 28 U.S.C. § 2255 to vacate
his original mandatory life sentence, which the district
court granted in July, 2014.
At his resentencing, Briones requested a sentence of
360 months’ imprisonment rather than a life sentence.
He argued that the sentencing guidelines, which recommend a life sentence in his case, should be set aside in

34a
light of Miller. Invoking the “hallmarks of youth”
identified by Miller, Briones argued that a life sentence
was inappropriate in his case. He argued that his gang
participation was a product of youthful immaturity and
a desire to have a “feeling of banding together.” He
pointed to a dysfunctional childhood environment, including parental drug and alcohol abuse, a history of
family criminality (both his father and brother were also
in the gang and were co-defendants), dropping out of
school in the tenth grade, and difficulties as a Native
American attending school off the reservation. He said
that he was poorly situated to aid in his own defense or
to contradict his father when he refused to take a plea
deal that would have resulted in a much lower sentence.
To mitigate his culpability in the crime, he observed that
the robbery scheme was not his idea and that he was not
the shooter. Finally, he pointed to evidence of rehabilitation, including that in all his time in prison he had not
been written up once for a disciplinary infraction, that
he had no gang involvement, that he had been working
continuously, and that he married his girlfriend with
whom he has a now-adult child, and that he sees his wife
regularly.
Both Briones and his wife testified at the resentencing hearing and discussed the difficulties of his childhood. Briones testified that he started drinking around
age 12 and as a teenager was regularly drunk in addition
to using cocaine and LSD. He wrote a letter to express
“[g]rief, regret, sorrow, pain.” He stated:
I don’t know how but I know I have to apologize for
everything and I apologize all the time to my family
because they’re there, and my apology goes out to
also to the [victim’s] family and to all the families, not

35a
just for what happened but for the other changes that
occurred in my life.
Although Briones told the court that he “want[ed] to
express remorse” and “want[ed] to express grief,” he
never actually took responsibility for any of the crimes
of which he was convicted. 1
The government countered that Briones deserved a
life sentence. The government acknowledged that under Miller, “a life sentence for a juvenile is inappropriate in all but the most egregious cases,” but argued that
“this is the most egregious case.” Despite recognizing
that Briones was “really doing well in prison,” the government noted that Briones expressed remorse, but
failed to accept responsibility, and continued to minimize his role in the murder and in the gang. Specifically, the government contended that it was not credible
that Briones was unaware of the gang members’ intention to murder the Subway clerk, and circumstantial evidence suggested Briones himself may have ordered the
murder, because the gunman shot the clerk immediately
upon reentering the restaurant after speaking with Briones outside.
The prosecutor described Briones’s
gang as “the most violent gang that I have ever been involved in prosecuting,” including the Hells Angels. Finally, the government pointed out that although Briones
was a juvenile, he was only barely—he was over seventeen years and eleven months old when the murder
occurred—and he continued to commit violent crimes

The dissent’s statement that Briones “expressed remorse repeatedly and at length,” Dissenting Opinion, p. 30, is simply not supported by the record.
1

36a
for another year and a half, stopping only when he was
arrested.
After hearing from the parties, and “[u]sing the
guidelines as a starting point,” the district court calculated a sentencing range of life imprisonment for Briones’s felony murder conviction, without objection from
counsel. The court noted that, “in addition to the
presentence report, I’ve considered the Government’s
sentencing memorandum, the defendant’s sentencing
memorandum[,] . . . the transcript of the [original]
sentencing[,] . . . the victim questionnaire and the
letters on behalf of the defendant.” The court found
that “[a]ll indications are that defendant was bright and
articulate, he has improved himself while he’s been in
prison, but he was the leader of a gang that terrorized
the Salt River Reservation community and surrounding
area for several years. The gang was violent and coldblooded.” Briones “appeared to be the pillar of strength
for the people involved to make sure they executed the
plan [to murder the victim],” and he “was involved in the
final decision to kill the young clerk.” The court expressed that “in mitigation I do consider the history of
the abusive father, the defendant’s youth, immaturity,
his adolescent brain at the time, and the fact that it was
impacted by regular and constant abuse of alcohol and
other drugs, and he’s been a model inmate up to now.
However, some decisions have lifelong consequences.”
Ultimately, the district court announced that, “[h]aving considered those things and all the evidence I’ve
heard today and everything I’ve read . . . it’s the
judgment of the Court that Riley Briones, Jr. is hereby
committed to the Bureau of Prisons for a sentence of
life.”

37a
Because the federal system does not permit parole
or early release from life sentences, see 18 U.S.C. § 3624,
Briones’s sentence is effectively for life without the possibility of parole. See United States v. Pete, 819 F.3d
1121, 1126, 1132 (9th Cir. 2016).
Briones timely appealed.
II
The district court’s sentencing decision is reviewed
for abuse of discretion, and “only a procedurally erroneous or substantively unreasonable sentence will be set
aside.” United States v. Carty, 520 F.3d 984, 993 (9th
Cir. 2008) (en banc) (citing Rita v. United States, 551
U.S. 338, 341 (2007)). The factual findings underlying
the sentence are reviewed for clear error. United
States v. Stoterau, 524 F.3d 988, 997 (9th Cir. 2008).
“When a defendant does not raise an objection to his
sentence before the district court, we apply plain error
review.
. . .
”
United States v. Hammons,
558 F.3d 1100, 1103 (9th Cir. 2009) (citation omitted).
A
Briones first contends that the district court erred
by calculating and using the sentencing guideline range.
He argues that, in light of Miller, “a court should no
longer start with a life sentence and work down, which
is precisely what the district court did here.” Instead,
says Briones, “a court must start from the presumption
that a life sentence should be uncommon” so that using
the guidelines as “the starting point was error that entitled Mr. Briones to a new sentencing.”
As the Supreme Court has repeatedly held, however,
“a district court should begin all sentencing proceedings
by correctly calculating the applicable Guidelines range,”

38a
and “[a]s a matter of administration and to secure nationwide consistency, the Guidelines should be the starting point and the initial benchmark.” Gall v. United
States, 552 U.S. 38, 49 (2007) (emphasis added) (citing
Rita at 347-48). Although “[t]he Guidelines are not the
only consideration,” and a sentencing court “may not
presume that the Guidelines range is reasonable,” the
district court’s “individualized assessment based on the
facts presented” must follow a correct guidelines calculation. Id. at 49-50.
Briones can point to no language in Miller or subsequent case law that overrules those clear instructions.
We therefore see no error in the district court following
the sentencing process prescribed by the Supreme
Court. See Miller v. Gammie, 335 F.3d 889, 900 (9th
Cir. 2003) (en banc) (holding that precedent is controlling unless subsequent authority has “undercut the theory or reasoning underlying the prior . . . precedent in such a way that the cases are clearly irreconcilable.”).
B
Briones next argues that the district court erred by
failing to “appropriately consider the[] factors” identified in Miller for sentencing juvenile offenders. He asserts that the district court “merely recite[d] ‘youth’ as
a mitigating circumstance” when it was in fact required
substantively to “consider the mitigating quality of
youth.” He argues that the court failed to give the evidence of his rehabilitation “the weight Miller requires”
and instead “focused on the facts of the case.” Briones
contends that “[t]he critical question should have been
whether Mr. Briones had the capacity to change” and

39a
that the district court gave “short shrift” to “the evidence of [his] maturation and change in demeanor.”
He also points to evidence he presented of his immaturity, dysfunctional family environment, and inability to
aid in his own defense, which he says the district court
“failed to properly assess” in evaluating “the hallmarks
of youth that must be considered before sentencing a juvenile to spend the rest of his life in prison.”
In Miller, the Supreme Court held unconstitutional
mandatory life-without-parole sentences for juvenile offenders and, in so doing, enumerated a series of factors
sentencing courts should consider:
Mandatory life without parole for a juvenile precludes consideration of his chronological age and its
hallmark features—among them, immaturity, impetuosity, and failure to appreciate risks and consequences. It prevents taking into account the family
and home environment that surrounds him—and
from which he cannot usually extricate himself—no
matter how brutal or dysfunctional. It neglects the
circumstances of the homicide offense, including the
extent of his participation in the conduct and the way
familial and peer pressures may have affected him.
Indeed, it ignores that he might have been charged
and convicted of a lesser offense if not for incompetencies associated with youth—for example, his inability to deal with police officers or prosecutors (including on a plea agreement) or his incapacity to assist his own attorneys.
567 U.S. at 477-78.
In Montgomery v. Louisiana, the Supreme Court
elaborated upon the Miller holding to clarify that it “did

40a
more than require a sentencer to consider a juvenile offender’s youth before imposing life without parole; it established that the penological justifications for life without parole collapse in light of ‘the distinctive attributes
of youth.’ ” 136 S. Ct. 718, 734 (2016) (quoting Miller,
567 U.S. at 472). Therefore, “[e]ven if a court considers a child’s age before sentencing him or her to a lifetime in prison, that sentence still violates the Eighth
Amendment for a child whose crime reflects unfortunate
yet transient immaturity.” Id. (citation and internal
quotation marks omitted). The Court concluded that
“sentencing a child to life without parole is excessive for
all but the rare juvenile offender whose crime reflects
irreparable corruption” and that Miller “bar[s] life
without parole . . . for all but the rarest of juvenile
offenders, those whose crimes reflect permanent incorrigibility.” Id. (citation and internal quotation marks
omitted). “Miller made clear that ‘appropriate occasions for sentencing juveniles to this harshest possible
penalty will be uncommon.’ ” Id. at 733-34 (quoting
Miller, 567 U.S. at 479).
In light of Miller and Montgomery, we agree with
Briones that the district court had to consider the “hallmark features” of youth before imposing a sentence of
life without parole on a juvenile offender. We also
agree that, as part of its inquiry into whether Briones
was a member of the class of permanently incorrigible
juvenile offenders, it had to take into account evidence
of his rehabilitation. However, we disagree that the
district court failed to do so.
We resolve these issues through the lenses of plain
error and abuse of discretion review—plain error review

41a
because Briones failed to object at sentencing, and review for abuse of discretion because of the “significant
deference” we afford district courts’ sentencing determinations. United States v. Martinez-Lopez, 864 F.3d
1034, 1043 (9th Cir. 2017) (citation omitted). Nothing
in Miller or Montgomery altered these longstanding
principles.
In order for a decision to constitute plain error, the
error must be so obvious that a district court judge
should be able to avoid the error without the benefit of
an objection. See United States v. Klinger, 128 F.3d
705, 712 (9th Cir. 1997).
In the sentencing context, a district court judge
abuses his discretion “only if the court applied an incorrect legal rule or if the sentence was illogical, implausible, or without support in inferences that may be drawn
from facts in the record.” Martinez-Lopez, 864 F.3d at
1043 (citation omitted). Briones’ claim cannot survive
this double layer of deferential review. 2
The gist of Briones’s appeal is that the district court
failed to make an explicit finding that Briones was “incorrigible,” that the district court failed to adequately
consider the “hallmarks of youth” discussed in Miller,
and that the district court did not adequately consider
Briones’s rehabilitation. We are not persuaded.
There is no doubt that the “hallmarks of youth,” as
they related to Briones, were considered by the court
because the record is replete with references to those

Our colleague in dissent criticizes the majority for following this
rule. See Dissenting Opinion, p. 30 (objecting to the reference to
reasonable inferences from the record).
2

42a
hallmarks, reflected in the following statements from
Briones’s counsel, and encompassing rehabilitation:
•

[If] we look at the Miller hallmarks of youth,
. . . Briones . . . showed immaturity . . .

•

So what we have here is classic immaturity, the
feeling of banding together to—with his friends
to form a gang is— . . . something that happens to especially young guys when they are 15,
16, 17 years old, and that is a toxic thing when you
deal with impetuosity and the failure to appreciate risk and consequences.
. . .
This is a hallmark of youth, the decision to join a
gang, to go along with your buddies . . .

•

And what is one of the hallmarks of
. . .
young guys as they start to mature . . . is the
finding of your place in the world, and not only
that finding, your identity . . . [H]e was already struggling with his identity as a Native
American and how that fit beautifully on to the
reservation and not so well on to the Mesa school
system.

•

And so part of this hallmark of youth . . . is
something that either he—was not explained properly or he didn’t understand it, which indicates
that—an inability to deal with the case.
. . .
So he was making bad choices because he was a
teenager who didn’t understand the risks and consequences of his behavior.
. . .

43a
[F]inally the Miller hallmark of youth is that a
mandatory life sentence disregards the potential
for rehabilitation.
. . .
So in a sense prison has been good to Riley Briones because it has changed him, allowed him to
change himself, but he does not need to die in
prison, Judge. He has rehabilitated himself.
(Emphases added).
Defense counsel also emphasized to the court that
Briones had no write-ups in prison, and had become a
family man.
The government acknowledged that Briones was
“doing well in prison,” but expressed disappointment
that Briones had never accepted responsibility. From
the government’s perspective, Briones minimized both
his role in the Subway murder and his role in the gang.
The government recounted in detail testimony from codefendants explaining that Briones was a leader of the
gang, and instructed them to find and kill a potential
witness to the Subway murder.
The government also pointed out that Briones was
only twenty-two days shy of his eighteenth birthday
when the Subway murder was committed, that Briones
continued his crime spree for another eighteen months,
and that Briones scratched gang graffiti into his cell
door three years after the Subway murder. According
to the government, Briones’s actions were “not indicative of an individual who is so immature that he didn’t
know what he was doing.” The government argued
that Briones’s conduct was not sufficiently mitigating to
warrant a change in Briones’s sentence.

44a
After hearing from defense counsel and the government, the court demonstrated that it had heard and considered all the information presented and remarks made
during the sentencing hearing, stating:
Well, in mitigation I do consider the history of the
abusive father, the defendant’s youth, immaturity,
his adolescent brain at the time, and the fact that it
was impacted by regular and constant abuse of alcohol and other drugs, and he’s been a model inmate up
to now. 3
Nevertheless, the judge determined that after considering “all the evidence . . . and everything the
judge had read,” a life sentence for Briones was warranted.
Admittedly, the district court did not explain at
length why consideration of Briones’s youth failed to
persuade the court to impose a sentence of less than life
imprisonment. But he was not required to do so.
Nothing in the Miller case suggests that the sentencing
judge use any particular verbiage or recite any magic
phrase. See Montgomery, 136 S. Ct. at 735 (noting that
Miller did not require trial courts to make a finding of
fact regarding a child’s incorrigibility). Rather, in the
Supreme Court’s own words, the sentencing judge is
“require[d] to take into account how children are different, and how those differences counsel against irrevocably sentencing them to a lifetime in prison.” Miller,
These detailed arguments definitely rebut the dissent’s “suggestion” that the “district court may have misunderstood the nature of
the inquiry Briones was asking it to make.” Dissenting Opinion, p.
29. Our colleague would have preferred different phrasing from the
district court, see id., pp. 29-30, but no such requirement can be
gleaned from Miller or Montgomery.
3

45a
567 U.S. at 480. We can rest assured that the district
court judge followed this mandate because he said so on
the record—that he had considered everything he heard
and read in conjunction with the sentencing hearing, including counsel’s impassioned arguments regarding
how the “hallmarks of youth” particular to Briones
counseled against imposition of a life sentence. 4
Fairly read, Briones’s statements could reasonably
be interpreted as not taking responsibility for his prior
criminal activity, in contravention of one of the basic tenets of rehabilitation. See, e.g., In re Arrotta, 208 Ariz.
509, 515 (2004) (en banc) (“Accepting responsibility for
past misdeeds constitutes an important element of rehabilitation. . . . ”). As we explained in United States
v. Carty, 520 F.3d 984, 995 (9th Cir. 2008) (en banc),
when the district court has listened to and considered all
the evidence presented, the district court is not required
to engage in a soliloquy explaining the sentence imposed.
In Rita, 551 U.S. at 358, the Supreme Court, also recognized that brevity does not equal error in the sentencing context. Upholding a sentence against a challenge
that the judge’s statement of reasons was too brief, the
Supreme Court observed:
In the present case the sentencing judge’s statement
of reasons was brief but legally sufficient. . . .
Our colleague in dissent would have the district court expound
more on its reasoning, to the extent of remanding for the district court
to do so. See Dissenting Opinion, pp. 31-32. Tellingly, no case authority is cited to support this proposition. Indeed, Miller and Montgomery stand for the exact opposite premise. See Montgomery, 136
S. Ct. at 735 (noting that Miller imposed no factfinding requirement).
4

46a
The record makes clear that the sentencing judge listened to each argument. The judge considered the
supporting evidence [and] simply found these circumstances insufficient to warrant a [lower sentence]. . . . He must have believed that there was
not much more to say.
Id.
The Supreme Court “acknowledge[d] that the judge
might have said more” but explained that where “the
record makes clear that the sentencing judge considered the evidence and arguments, we do not believe the
law requires the judge to write more extensively.” Id.
at 359.
Reviewing for plain error, we conclude that the sentencing remarks in this case fell well within the contours
articulated by the Supreme Court in Rita, reflecting the
judge’s consideration of and reliance upon the record.
See id. at 358-59; see also United States v. Kleinman,
880 F.3d 1020, 1041 (9th Cir. 2018), as amended (“A sentencing judges does not abuse its discretion when it listens to the defendant’s arguments and then simply finds
the circumstances insufficient to warrant a [lower sentence]. The court listened to [defendant’s] arguments,
stated that it reviewed the statutory sentencing criteria,
and imposed a within-Guidelines sentence; failure to do
more does not constitute plain error.”) 5 (citations and
internal quotation marks omitted).
This authority negates the dissent’s argument that the sentencing judge “failed to provide an adequate explanation of its sentence
under the same standard that would apply to any sentencing.” Dissenting Opinion, p. 35. Under the applicable standard, the sentencing judge’s remarks were adequate. See Kleinman, 880 F.3d at 1041.
5

47a
On this record, we cannot honestly say that the district court’s imposition of a sentence of life imprisonment was “illogical, implausible, or without support in
inferences that may be drawn from facts in the record.”
Martinez-Lopez, 864 F.3d at 1043 (citation omitted).
In other words, no error occurred and without error
there can be no plain error. See Puckett v. United
States, 556 U.S. 129, 135 (2009) (explaining that “there
must be an error” before plain error review is invoked).
Perhaps the outcome of this appeal would be different if we were reviewing de novo. But we are not reviewing de novo. We are reviewing through the doubly
deferential prisms of abuse of discretion and plain error
standards of review. 6 With those standards of review
firmly in mind, we conclude that the district court’s
pronouncement of sentence was adequate. 7 See Rita,
551 U.S. at 358; see also Carty, 520 F.3d at 995; Kleinman, 880 F.3d at 1041.
Our colleague in dissent relies upon the unpublished
disposition of United States v. Orsinger, 698 F.App’x
Our colleague in dissent seeks to avoid plain error review despite
a clear record showing a lack of objection from Briones in the district
court to the asserted absence of an adequate statement of incorrigibility from the sentencing judge. See Dissenting Opinion, pp. 3334 & n.2. We are not persuaded. See Hammons, 558 F.3d at 1103
(applying plain error review when no objection was raised).
7
Our colleague in dissent remarks that “we are ill-suited as an
appellate court to say that a finding of incorrigibility is the only
reasonable one.” Dissenting Opinion, p. 33. However, it is not
our role to say whether the district court’s finding was “the only reasonable one.” Rather, our sole role is to determine whether the district court’s finding was a reasonable one. See Martinez-Lopez,
864 F. 3d at 1043 (noting that a district court abuses its discretion if
it imposes a sentence that is “illogical” or “implausible.”)
6

48a
527 (9th Cir. 2017) to support the argument that the district court should have said more. Not only is this case
non-precedential and non-binding, it is not even persuasive. In Orsinger, we affirmed a sentence for the same
reason we should affirm the sentence in this case—
because of the deference we afford sentencing courts
under the abuse of discretion standard of review. See
id. at 527 (referencing the judge’s choice between “two
permissible views of the evidence”); see also Gall v.
United States, 522 U.S. 38, 51 (2007) (discussing the deference due to a district court’s sentencing decision).
Ultimately, the majority is of the view that affirming
the sentence imposed by the district court conforms to
our precedent and that of the United States Supreme
Court. In the cogent words of our esteemed colleague
Judge Farris, “[m]y [colleague] and I differ on what is
the appropriate appellate function. He would retry.
I am content to review.” Li v. Ashcroft, 378 F.3d 959,
964 n.1 (9th Cir. 2004).
III
Briones makes two further arguments that he is categorically ineligible for a life-without-parole sentence,
implying that we should instruct the district court on remand that he may not receive that sentence under any
review of the record. First, he argues that a life sentence may not be imposed “on a juvenile offender who
did not actually kill,” so he may not receive that sentence
because he was not the gunman. Second, he argues
that the Eighth Amendment prohibits life sentences for
juvenile offenders entirely.

49a
Both arguments are foreclosed by Miller and Montgomery. Montgomery specifically observed that “Miller . . . did not bar a punishment for all juvenile offenders,” and that although life without parole is now
limited to “the rare juvenile offender,” those rare offenders “can receive that . . . sentence.” Montgomery, 136 S. Ct. at 734. Miller itself involved a defendant who did not fire the bullet that killed” the victim. Miller, 567 U.S. at 478. The Supreme Court did
not say that he could not be sentenced to life without parole, but only that “a sentencer should look at” mitigating facts of youth “before depriving [the defendant] of
any prospect of release from prison.” Id. Given that
Miller and Montgomery expressly envision that some
juveniles may be sentenced to life without parole, including those who did not actually “fire the bullet,” the district court could still constitutionally sentence Briones
to life in prison.
AFFIRMED.

50a
O’SCANNLAIN, Circuit Judge, concurring in part and
dissenting in part:
As the majority opinion’s detailed recitation of the
facts makes clear, Riley Briones, Jr., participated in a
cold-blooded murder and was a leader in a vicious gang,
see Majority Op. Part I.A, so it is not difficult to understand why the district court considered a severe sentence appropriate. Notwithstanding the grievous nature of the crimes, however, the court was required to
follow the Supreme Court’s holding that the Eighth
Amendment bars life-without-parole sentences “for all
but the rarest of juvenile offenders, those whose crimes
reflect permanent incorrigibility.”
Montgomery v.
Louisiana, 136 S. Ct. 718, 734 (2016) (citing Miller v.
Alabama, 567 U.S. 460 (2012)).
I agree with the majority that nothing in Montgomery or Miller indicates that Briones is categorically ineligible for a life sentence simply because he is a juvenile
who did not pull the trigger, see Majority Op. Part III,
and I agree that the district court was correct to begin
its sentencing process by calculating the Sentencing
Guidelines range, see id. Part II.A. I cannot agree,
however, with the majority’s holding that the district
court sufficiently considered Briones’s claim that he was
not in that class of rare juvenile individuals constitutionally eligible for a life-without-parole sentence. See id.
Part II.B.
The majority reads too much into the district court’s
cursory explanation of its sentence, and it divines that
the district court must have adopted the rationale for its
sentence suggested by the government on appeal.
Although a sentencing court need not pedantically recite

51a
every fact and legal conclusion supporting its sentence,
it must provide enough explanation for a court of appeals to evaluate whether or not the decision to reject a
defendant’s argument is consistent with law.
The
sparse reasoning of the district court in this case gives
me no such assurance.
I respectfully dissent from Part II.B of the opinion
and would remand for the limited purpose of permitting
the district court properly to perform the analysis required by Miller and Montgomery.
I
The difficult question raised in this case is whether
Briones is in fact one of those “rarest of juvenile offenders . . . whose crimes reflect permanent incorrigibility.” Montgomery, 136 S. Ct. at 734. Without any
evident ruling on that question, the district court imposed a life sentence on Briones. As the majority indicates, because there is no parole in the federal system,
that “sentence is effectively for life without the possibility of parole.” Majority Op. at 10.
A
The majority is comfortable deferring to the district
court’s sentence because the court considered some of
the “hallmark features” of youth identified by the Supreme Court in Miller. 567 U.S. at 477; see Majority
Op. at 13-15. I agree that the court did so, which we
know because it expressly said it considered “the defendant’s youth, immaturity, [and] his adolescent brain
at the time [of the crime].”
But to leave the analysis at that is to misunderstand
the nature of Briones’s challenge to a life sentence and
the importance of Montgomery’s clarification of Miller.

52a
In Miller, the Supreme Court held that “the Eighth
Amendment forbids a sentencing scheme that mandates
life in prison without possibility of parole for juvenile offenders,” explaining that a sentencing court must “take
into account how children are different, and how those
differences counsel against irrevocably sentencing them
to a lifetime in prison.” 567 U.S. at 479-80. Left at
that, Miller could be understood merely as a procedural
requirement, mandating that sentencing courts must
consider certain hallmark characteristics of youth and
that they must be permitted to impose a sentence less
than life. If that were all Miller meant, the district
court likely would have complied with its dictates.
But the Supreme Court made clear in Montgomery
that Miller stood for more. Beyond procedural boxes
to check, Miller recognized a substantive limitation on
who could receive a life sentence:
Miller . . . did more than require a sentencer to
consider a juvenile offender’s youth before imposing
life without parole; it established that the penological
justifications for life without parole collapse in light
of the distinctive attributes of youth. Even if a
court considers a child’s age before sentencing him or
her to a lifetime in prison, that sentence still violates
the Eighth Amendment for a child whose crime reflects unfortunate yet transient immaturity.
Montgomery, 136 S. Ct. at 734 (emphasis added) (internal quotation marks and citation omitted). In light of
Montgomery, we know that “sentencing a child to life
without parole is excessive for all but the rare juvenile
offender whose crime reflects irreparable corruption”
and that Miller “bar[s] life without parole . . . for all
but the rarest of juvenile offenders, those whose crimes

53a
reflect permanent incorrigibility.” Id. (emphasis added)
(internal quotation marks omitted). 1
The heart of Briones’s argument before the district
court was that he could not be sentenced to life because
he is not irreparably corrupt or permanently incorrigible. The “critical question” before the district court,
then, was whether Briones had the “capacity to change
after he committed the crimes.” United States v. Pete,
819 F.3d 1121, 1133 (9th Cir. 2016).
B
Unfortunately, we cannot know whether the district
court answered that question because there is nothing
in the record that allows us to confirm that the court
even considered it.
A sentencing court must, “at the time of sentencing,
. . . state in open court the reasons for its imposition
of the particular sentence.” 18 U.S.C. § 3553(c). In
elaborating on that statutory command, the Supreme
Court has explained that “[t]he sentencing judge should
set forth enough to satisfy the appellate court that he
has considered the parties’ arguments and has a reasoned basis for exercising his own legal decisionmaking
authority.” Rita v. United States, 551 U.S. 338, 356
(2007). “[W]here the defendant or prosecutor presents
nonfrivolous reasons for imposing a [non-Guidelines]

Montgomery was decided only two months before the district
court resentenced Briones, and so Briones’s arguments were framed
in terms of Miller. That said, Montgomery was raised indirectly by
Briones’s counsel at sentencing, and Briones’s interpretation of Miller as a substantive prohibition on life imprisonment for most juvenile offenders is the one that Montgomery confirmed to be correct.
1

54a
sentence, . . . the judge will normally . . . explain why he has rejected those arguments.” Id. at
357; see also United States v. Carty, 520 F.3d 984, 992
(9th Cir. 2008) (en banc) (“A within-Guidelines sentence
ordinarily needs little explanation unless a party has
. . . argued that a different sentence is otherwise warranted.” (emphasis added)).
1
Unlike the majority, I am not satisfied that the district court “set forth enough to satisfy the appellate
court that he has considered the parties’ arguments.”
Rita, 551 U.S. at 356. If anything, the record suggests
that the district court misunderstood the applicable legal rule of Miller.
In explaining its decision to impose a life sentence,
the district court indicated that it had “consider[ed] the
history of [Briones’s] abusive father, [Briones’s] youth,
immaturity, his adolescent brain at the time, and the fact
that it was impacted by regular and constant abuse of
alcohol and other drugs, and that he’s been a model inmate up to now.” The court seemingly found those facts
—which it considered to be “mitigation”—outweighed
by the awfulness of the murder, Briones’s role in it, and
his leadership in a “violent and cold-blooded” gang.
“Having considered those things,” the district court imposed a “sentence of life.”
All of those considerations are indeed relevant to selecting a proper sentence based on the sentencing factors of 18 U.S.C. § 3553(a). But they are not directly
responsive to Briones’s argument arising out of Miller
that he is not within the class of the rare juvenile offend-

55a
ers who are permanently incorrigible and hence constitutionally eligible for a life sentence. The question is
not merely whether Briones’s crime was heinous, nor
whether his difficult upbringing mitigated his culpability. It is whether Briones has demonstrated “irreparable corruption,” Montgomery, 136 S. Ct. at 734 (quoting
Miller, 567 U.S. at 479-80), which requires a prospective
analysis of whether Briones has the “capacity to change
after he committed the crimes,” Pete, 819 F.3d at 1133.
Nothing in the district court’s explanation of its sentence bears directly on the question of whether Briones
is irreparably corrupt. If anything, the sentencing
transcript reveals factual findings that suggest Briones
has demonstrated a capacity to change. The district
court observed that Briones has “been a model inmate”
and that he “has improved himself while he’s been in
prison.” Perhaps, despite that promising behavior, the
district court could have determined that countervailing
evidence indicated that Briones is permanently incorrigible. But the transcript does not indicate that the district court made such determination.
More troubling, the transcript suggests that the district court may have misunderstood the nature of the inquiry Briones was asking it to make. Miller “rendered
life without parole an unconstitutional penalty for . . .
juvenile offenders whose crimes reflect the transient immaturity of youth,” which the Supreme Court has instructed includes “the vast majority of juvenile offenders.” Montgomery, 136 S. Ct. at 734. Yet the district
court only considered the Miller hallmarks of youth as
“mitigation,” suggesting that it started from the inverted assumption that most juvenile offenders are eligible for life sentences and that Briones’s evidence could

56a
only mitigate from that. If the district court fully grappled with Miller’s rule, one would think it would have
spoken of “aggravating” evidence rather than “mitigation.” Moreover, in explaining that Briones’s crime
justified a life sentence because “some decisions have
lifelong consequences,” the district court suggested it
misunderstood Miller entirely. The point of Miller is
that “juveniles have diminished culpability and greater
prospects for reform.” 567 U.S. at 471. That is why
the sentencing analysis must be forward-looking and address the “capacity to change,” Pete, 819 F.3d at 1133,
not the static characteristics of the juvenile defendant at
the moment of his criminal decisions. In fact, there are
no forward-looking statements at all from the district
court in its sentencing colloquy; the stated basis for the
sentence was entirely retrospective.
2
To cure the deficiencies in the district court’s explanation of the sentence imposed, the government asks us
to infer that the district court must have found Briones
incorrigible based on a lack of candor when he testified
at the resentencing hearing. The majority jumps at
this invitation, adopting the government’s position to observe that “Briones’ statements could reasonably be interpreted as not taking responsibility for his prior criminal activity, in contravention of one of the basic tenets of
rehabilitation.” Majority Op. at 19 (emphasis added).
The equivocal nature of the majority’s statement is
telling. Perhaps the district court could have thought
that Briones failed to take responsibility for his actions,
but nowhere in the district’s court’s statement of reasons for the sentence did it say as much. Although the

57a
government and the majority offer one plausible interpretation of Briones’s testimony, it is hardly the only
one. In fact, when I read the transcript, I see much
that could support a contrary finding that Briones expressed remorse repeatedly and at length.
Briones expressed regret for his actions. He admitted the key facts of the murder and subsequent
crimes and admitted that “it’s probably my fault when I
thought about it.” He explained that he regularly asks
himself “why didn’t I do something at that time, why
. . . didn’t I stop myself way before that, why didn’t I
do something at the court?” He explained that “the
thing that haunted me so much about just living in
prison was that” the murder victim was “a young Christian man,” and that it “haunts me to have that on my
hands.” And he said, “I want to express remorse, I
want to express grief.”
Briones also expressed sympathy for those he had
harmed. For instance, he explained that he did not believe the victim’s family could ever forgive him because
he was responsible for “a great offense that . . . is
unrepaired.” He explained that “now that I’m older
. . . I witness not just in my own life people murdered
and their killers get to go home,” and he can “see[] people in pain when they’ve gone through their loss, [and]
all of this had made me not only sympathize but to empathize with all of it.” He said, “I know I have to apologize for everything and I apologize all the time to my
family . . . , and my apology goes out . . . to the
[victim’s] family.”
I do acknowledge that there are portions of the transcript from which one could infer a lack of candor. It is

58a
true that Briones’s testimony was not crisp and eloquent. And it is true that he continued to say that he
“didn’t think myself a leader” in the gang and that he
continued to deny that the plan from the beginning was
to murder the Subway clerk.
Perhaps, hearing all the testimony and weighing the
countervailing inferences, the district judge could have
concluded that Briones was insufficiently honest or that
he failed to take responsibility for his crimes. Perhaps
those findings could be evidence of incorrigibility.
But the district court never said any of that. All the
reasons that it did give for the sentence were about the
nature of the crime, not the subsequent lack of remorse
or acceptance of responsibility. Reading a cold transcript, the majority is willing to conclude that Briones
“never actually took responsibility for any of the crimes
of which he was convicted.” Majority Op. at 8. I am
not willing to reach such a critical factual conclusion
based on an ambiguous transcript, especially when the
district court made no such factual finding.
The majority accuses me of retrying Briones’s case
rather than reviewing it as an appellate court should.
See Majority Op. at 22. But it is the majority that has
invented a basis for the sentence which cannot be found
in the record. The reason courts of appeals accord
great deference to a district court’s sentencing decision
is that “[t]he sentencing judge has access to, and greater
familiarity with, the individual case and the individual
defendant before him than . . . the appeals court.”
Rita, 551 U.S. at 357-58. Unlike the majority, I would
take advantage of that expertise by remanding for an
actual determination of Briones’s incorrigibility rather

59a
than attempting to divine one by reading a transcript
through squinted eyes.
C
Another aspect of this case that gives me pause is
that it is not obvious whether or not Briones fits within
the class of juvenile offenders constitutionally eligible
for a life sentence. If the only plausible reading of the
record were that Briones is incorrigible, I could more
easily assure myself that the district court reached that
conclusion even though it did not specifically respond to
the Miller argument. Looking at the record holistically, however, I cannot say that it necessarily betrays
permanent corruption.
After Graham v. Florida, 560 U.S. 48 (2010), the only
juvenile offenders eligible for a life sentence are those
who committed a homicide. Criminal homicides will invariably be odious crimes, but the Supreme Court nonetheless instructed that only “the rarest of juvenile offenders” may receive a life sentence under the Eighth
Amendment. Montgomery, 136 S. Ct. at 734. Here,
we have a juvenile felony murder offender who helped
to plan a robbery-murder, who drove the getaway car,
and who then was a leader in a series of subsequent violent crimes. But like one of the defendants in Miller
itself, Briones “did not fire the bullet that killed” the victim; and like the other defendant in Miller, although he
was involved in “a vicious murder,” Briones had a difficult upbringing replete with substance abuse. 567 U.S.
at 478-79. Moreover, in this instance, we have a defendant whom even the district court called a “model inmate,” which surely goes to the question of “whether
[the defendant] has changed in some fundamental way
since” the crime. Pete, 819 F.3d at 1133. The evidence

60a
on incorrigibility is therefore mixed, and we are illsuited as an appellate court to say that a finding of incorrigibility is the only reasonable one.
D
As a secondary basis for affirming, the majority
leans heavily on the highly deferential plain error standard of review. See Majority Op. at 20. In arguing that
such review should apply to this case, the majority analogizes to cases involving defendants making purely procedural arguments on appeal that district courts insufficiently explained otherwise permissible sentences. 2
But here, Briones is not objecting merely to a deficient explanation. Rather, his claim is substantive:
that he is constitutionally ineligible for a particular sentence under Miller, a claim he did squarely argue before
the district court, at length. The court’s failure properly
to explain its sentence requires remand not because it
was procedural error, but rather because such failure
prevents us from being able properly to review Briones’s

Even if Briones were making a purely procedural objection based
on the sufficiency of the district court’s explanation of how it weighed
the 18 U.S.C. § 3553(a) sentencing factors, our case law is not clear
regarding what the proper standard of review would be. As the majority contends, in some of those cases, we have reviewed for plain
error. See, e.g., United States v. Kleinman, 880 F.3d 1020, 1040-41
(9th Cir. 2017); United States v. Valencia-Barragan, 608 F.3d 1103,
1108 (9th Cir. 2010). As happens too often, however, our court has
not been consistent. See, e.g., United States v. Trujillo, 713 F.3d
1003, 1008-11 & n.3 (not applying plain error review in a case where
“[t]he district court did not address” the defendant’s sentencing arguments). Because these cases are not relevant to considering Briones’s substantive claim, however, we need not resolve this potential
intra-circuit split.
2

61a
substantive claim. As the majority acknowledges, a district court’s sentence is invalid “if the court applied an
incorrect legal rule.”
United States v. MartinezLopez, 864 F.3d 1034, 1043 (9th Cir. 2017) (en banc); see
Majority Op. at 14. Because the record does not allow
us to determine whether the court did apply the correct
legal rule, we should remand for that limited purpose.
II
A
I share the majority’s concern that we ought not to
conjure procedural sentencing hurdles unsupported by
law. I am especially cognizant of this concern because
other courts have read Miller and Montgomery to impose special procedural requirements well beyond what
those opinions actually require. E.g., Commonwealth
v. Batts, 163 A.3d 410, 415-16 (Pa. 2017) (“recogniz[ing]
a presumption against the imposition of a sentence of
life without parole for a juvenile offender” that may be
rebutted only if the government proves, “beyond a reasonable doubt, that the juvenile offender is incapable of
rehabilitation”).
But the district court’s explanation of the sentence
may be faulty without requiring that it utter any “magic
phrase” to justify its sentence, Majority Op. at 18, and
we need impose no special procedures simply because
Briones was a juvenile when he committed the murder.
Instead, I would simply enforce the requirements of
18 U.S.C. § 3553(c) so that we may properly evaluate
Briones’s Miller claim on appeal.
The error here was not that the district court failed
to apply some procedure special to juvenile offenders.

62a
Rather, the court failed to provide an adequate explanation of its sentence under the same standard that would
apply to any sentencing. It erred because Briones argued that he could not constitutionally be given a life
sentence, his arguments were “not frivolous,” and the
court did not squarely “address any of them, even to dismiss them in shorthand.” United States v. Trujillo,
713 F.3d 1003, 1010 (9th Cir. 2013). Remanding for a
new sentencing here would have no bearing on a case in
which the defendant does not present a credible argument under Miller or one in which the district court explicitly confronted a Miller argument about the defendant’s incorrigibility.
B
Comparing this case to another illustrates that we
can reasonably expect more of the district court at sentencing without our being overly pedantic. In another
case raising a Miller claim, submitted to our panel the
same day that Briones’s case was argued, the defendantappellant had committed four murders as a juvenile—
including two while facing trial—and in the process had
disfigured or dismembered and then buried the victims’
bodies. See United States v. Orsinger, 698 F. App’x
527, 527 (9th Cir. 2017) (unpublished). Two of the victims were a 63-year-old grandmother and her nine-yearold granddaughter, and the defendant had killed the little girl by hand, crushing her head with rocks. We affirmed the life sentence because the district court made
clear it had grappled with the Miller claim. See id.
The fact that another defendant committed even
more monstrous crimes than did Briones does not ameliorate the tragedy of an innocent clerk’s death or the
terror that Briones’s gang inflicted on his community.

63a
But in that second case with four gruesome murders,
and where the defendant had continued to exhibit violence while incarcerated, the sentencing judge nevertheless properly evaluated the objection to a life sentence under Miller. That judge “recognize[d] that
Miller permits life sentences for juvenile offenders only
in ‘uncommon’ cases” and “made a finding that [the defendant] did indeed fit within that ‘uncommon’ class of
juvenile offenders” to justify imposition of a life sentence. Id. (quoting Miller, 567 U.S. at 479).
That is not to suggest that the district judge in Briones’s case could not justifiably impose the same sentence. It only demonstrates that—even in a case that
much more obviously compels a conclusion that the defendant is incorrigible—a district judge can properly address a Miller claim without invoking any magic phrase.
I would require the same of the district court in this
case.
III
Although I concur in Parts I, II.A, and III of the majority opinion, I must respectfully dissent from Part
II.B and the ultimate judgment. I would vacate the
judgment of the district court and remand for resentencing.

64a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

CR 96-464-4-PHX-DLR
UNITED STATES OF AMERICA, PLAINTIFF
v.
RILEY BRIONES, JR., DEFENDANT
Phoenix, Arizona
Mar. 29, 2016
9:16 a.m.
REPORTER’S TRANSCRIPT OF PROCEEDINGS
(Re-Sentencing)

APPEARANCES:
FOR THE PLAINTIFF:
PATRICK J. SCHNEIDER
Assistant U.S. Attorney
Two Renaissance Square
40 N. Central Avenue, Suite 1200
Phoenix, Arizona, 85004-4408
FOR THE DEFENDANTS:
VIKKI M. LILES
Attorney at Law
45 West Jefferson, Suite 412
Phoenix, Arizona 85003

65a
* * * * *
[105]
* * * * *
Miss Liles, did you have anything else?
MS. LILES:

No, Your Honor.

THE COURT: Well, in mitigation I do consider the
history of the abusive father, the defendant’s youth, immaturity, his adolescent brain at the time, and the fact
that it was impacted by regular and constant abuse of
alcohol and other drugs, and he’s been a model inmate
up to now.
However, some decisions have lifelong consequences. This robbery was planned, maybe not by the
defendant but he took over and was all in once the plan
was developed. He drove everybody there. He appeared to be the pillar of strength for the people involved to make sure they executed [106] the plan. The
murder of the clerk was planned. It wasn’t an accident,
it wasn’t unexpected. Although the defendant did not
pull the trigger, he was in the middle of the whole thing.
He stayed in the car, apparently, to avoid responsibility.
And circumstantially, at least, it appears that defendant was involved in the final decision to kill the
young clerk. Eschief came out to the car and spoke to
him and walked right back in and shot him in the head.
He spoke to the defendant right before he pulled the
trigger. I don’t know what other conclusion can be
drawn than that the defendant was involved in the final
decision and encouraged the shooter to pull the trigger.
All indications are that defendant was bright and articulate, he has improved himself while he’s been in

66a
prison, but he was the leader of a gang that terrorized
the Salt River Reservation community and surrounding
area for several years. The gang was violent and coldblooded.
Having considered those things and all the evidence
I’ve heard today and everything I’ve read, pursuant to
the Sentencing Reform Act of 1984, it’s the judgment of
the Court that Riley Briones, Jr. is hereby committed to
the Bureau of Prisons for a sentence of life.
Upon release from imprisonment, the defendant
shall be placed on supervised release for five years.
While on supervised release, the defendant shall comply
with the [107] standard conditions of supervision adopted
by this Court in General Order 12-13. Of particular importance, the defendant shall not commit another federal, state or local crime during the term of supervision.
Within 72 hours of release from custody of the Bureau of Prisons, the defendant shall report in person to
the Probation Office in the district to which he’s released.
Defendant shall comply with the following additional
condition:
You shall participate as instructed by the probation
officer in a program of substance abuse treatment.
You shall not contact the following victims. No contact. The family of Brian Patrick Lindsay and the Gutierrez family, and any probation officer will verify compliance.
You shall not be involved in gang activity, possess
any gang paraphernalia or associate with any person affiliated with a gang.

67a
You shall submit your person, property, house, residence, vehicle, papers or office to a search conducted by
a probation officer. Failure to submit to a search may
be grounds for revocation of release.
The Court finds the sentence to be sufficient but not
greater than necessary to comply with the purposes set
forth in 18 U.S.C. Section 3553(a). The Court finds the
sentence to [108] be reasonable pursuant to that statute
considering the nature and circumstances of the offense,
the history and characteristics of the defendant, and the
need to reflect the seriousness of the offense, promote
respect for the law, provide a just punishment, afford
adequate deterrence, protect the public from further
crimes of the defendant, and avoid unwarranted sentencing disparities.
The Court adopts the facts as set forth in the presentence report in support of the guideline calculations and
the reasons for the sentence.
Mr. Briones, do you understand the sentence?
THE DEFENDANT:

Yes.

Yes.

THE COURT: Sir, you have the right to appeal.
If you want to appeal, you must file your notice of appeal
within 14 days from today’s date. If you want to appeal, you have the right to have counsel represent you
at no cost to you if you could not afford counsel.
You understand?
THE DEFENDANT:
THE COURT:
cover at this time?

Yeah, I understand.

Counsel, is there anything else to

MR. SCHNEIDER:

No, Your Honor.

68a
MS. LILES:

Not from us, Judge.

THE COURT: Counsel, the special assessment, I
assume that’s been resolved by now. Has he paid that
by now?
[109]
MR. SCHNEIDER:
that, Judge.

I don’t know the answer to

THE COURT: Let me—there’s a special assessment of $50. It’s due immediately. Let me just—
while incarcerated, payment of the criminal monetary
penalties will be due at a rate of not less than $25 per
quarter and payment shall be made through the Bureau
of Prisons Inmate Financial Responsibility Program.
Criminal monetary payments shall be played to the
Clerk, U.S. District Court, Attention: Finance, Suite
130, 401 West Washington Street, SPC-1, Phoenix, Arizona, 85003-2118.

The Court hereby waives the imposition of interest
and penalties on any unpaid balance, and the Court finds
defendant does not have the ability to pay and orders
the fines waived.
We’ll stand in recess.
(Proceedings recessed at 12:25 p.m.)

